<html>
<title> - HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-1225]
[From the U.S. Government Publishing Office]








                                                       S. Hrg. 111-1225

                  HEARING ON THE PRESIDENT'S PROPOSED 
                    EPA BUDGET FOR FISCAL YEAR 2011

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-350 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 23, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     8
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    10
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    15
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    15
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    16
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    18
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    18
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................   214

                                WITNESS

Jackson, Lisa P., Administrator, U.S. Environmental Protection 
  Agency.........................................................    23
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Barrasso.........................................    38
        Senator Baucus...........................................    42
        Senator Bond.............................................    48
        Senator Boxer............................................    51
        Senator Cardin...........................................    73
        Senator Inhofe...........................................    86
        Senator Lautenberg.......................................   105
        Senator Vitter...........................................   109
        Senator Voinovich........................................   129
        Senator Whitehouse.......................................   132

                          ADDITIONAL MATERIAL

Letter from the Union of Concerned Scientists to Senator Boxer, 
  December 2, 2009...............................................   215

 
  HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FISCAL YEAR 2011

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Cardin, Carper, Bond, 
Whitehouse, Vitter, Merkley, Sanders, Barrasso, and Klobuchar.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    I want to welcome everybody here. Before we get started I 
want to take a moment to express, on behalf of the full 
committee, our sincerest condolences to the family of Fish and 
Wildlife Service Director Sam Hamilton, who passed away 
suddenly over the weekend at a young age. We were all deeply 
saddened to learn of his passing, and our hearts go out to his 
family and his friends.
    Mr. Hamilton brought more than 30 years of experience with 
the Fish and Wildlife Service and a lifelong record as a 
committed conservationist, and he brought this to his work. His 
loss will be keenly felt by the dedicated professionals at the 
Fish and Wildlife Service and frankly by every American who 
cares about protecting our Nation's wild and natural treasures.
    I know Senator Inhofe had written a beautiful letter, put 
out a beautiful statement, and I think we are certainly united 
in this feeling.
    I also wanted to take a minute, on the public works side, 
to thank the people who voted to move forward with the Highway 
Trust Fund yesterday. We all know we needed that vote badly, 
and I particularly want to thank Senators Voinovich and Bond on 
this committee for voting to move forward with that jobs bill. 
I think that vote was very key, and I am very happy about it.
    So now I am going to start my comments. I told Senator 
Inhofe that if I go over my 5 minutes he will get every second 
that I take up. We have agreed that would be a fair way to 
proceed.
    Welcome, Administrator Jackson. I appreciate this EPA 
budget's significant commitment to the Nation's clean water and 
drinking water, to that infrastructure, and the priority 
funding for the EPA's Office of Children's Health. Children are 
especially vulnerable to pollution, and we must ensure that 
they are protected.
    I have a couple of concerns about the budget, which I will 
talk to you about in my question time. The Superfund Program, I 
do not think we are going to clean up enough sites, and I am 
concerned. And some of the Clean Air Programs, including the 
San Joaquin and South Coast Air District Emissions Grants, 
which again I will bring up to you in the question time.
    I would like to note that the President's budget takes 
important steps that are needed to begin to address global 
warming. We know, because you wrote a letter, that you will not 
be enforcing these rules for a year, but you do need to 
prepare, as the Supreme Court has instructed.
    While the world is going green the one place where we 
cannot seem to address climate change directly by legislation 
is in the Senate. For example, in Great Britain both political 
parties, Labor and Conservative, all support strong action on 
this issue.
    Meanwhile, my good friend and colleague, Senator Inhofe, 
had a great time inviting Al Gore to his very well crafted 
igloo that he made during Washington's big snowstorm.
    Senator Inhofe. That my grandkids made.
    Senator Boxer. Well, OK, yes, but I think you oversaw. It 
was a very good job.
    [Laughter.]
    Senator Boxer. And I think there was more than a hint there 
that, because it snowed so much in February in Washington, that 
that proves that the climate is not warming.
    But scientists know that weather and climate are two 
different things. Here is how NASA explains the difference. 
They say, this is NASA; in most places weather can change from 
minute to minute, hour by hour, day to day, and season to 
season. Climate, however, is the average of weather over time 
and space.
    To illustrate this point, let us look at what happened in 
other parts of the world while the igloo was being built. In 
Rio de Janeiro, Brazil, record hot temperatures including 3 
days in a row of over 100 degrees, were responsible for 32 
deaths. And we will show you a photo of a machine moving snow 
on grassy Vancouver ski slopes.
    [Picture shown.]
    Senator Boxer. Also the same week the igloo was being built 
the organizers of the Winter Olympics were forced to truck in 
tons of snow because slopes that have seen an average of 8 feet 
of snow over the past 4 years had a mere 36 inches.
    Now, I do not claim that any of these weather events proves 
or disproves climate change, not the snow here and not the hot 
weather there, because that is not a scientific approach to 
this issue. The way to evaluate climate trends is to look at 
scientific records over time. So, let us do that.
    The National Oceanic and Atmospheric Administration tell us 
that the 2000 to 2009 decade is the hottest in the last 130 
years since records were being kept. And here is some more 
scientific evidence. We have a chart on the melting ice sheets.
    [Chart shown.]
    Senator Boxer. Every ice front in the southern part of the 
Antarctic Peninsula has been retreating overall from 1947 to 
2009 with the most dramatic changes occurring since 1990. That 
is the U.S. Geological Survey, 2010. That just came out. In 
September 2009 the northern hemisphere sea ice event was the 
third lowest since satellite records began in 1979. That is 
also a NOAA report from 2010.
    So, these are the facts on the ground. This is not 
speculation. Thank you for the chart. Scientists tell us that 
one of the marks of climate change is extreme weather. Let us 
look at this chart, Extreme Weather in the United States.
    [Chart shown.]
    Senator Boxer. The amount of rain in the heaviest storms 
has increased nearly 20 percent in the last century. By 
contrast, in much of the Southeast and large parts of the West, 
the frequency of drought has increased over the past 50 years. 
In the West, both the frequency of large wildfires and length 
of the fire season have increased substantially in recent 
decades. And in the last 30 years annual sea surface 
temperatures in the Main Atlantic Hurricane Development Region 
increased 2 degrees Fahrenheit, coinciding with an increase in 
the destructive energy of Atlantic tropical storms and 
hurricanes.
    Now, one of the reasons I am so pleased that EPA is 
addressing climate change is that when we do so we create 
millions of jobs. But as the L.A. Times reports just yesterday, 
jobs are being lost as we allow the rest of the world to 
surpass us in developing new technologies.
    I really urge my colleagues to read this article, 
Uncertainty Over Proposals in Congress Has Firms Holding Off on 
Investments, this is the L.A. Times, at stake for Americans, 
thousands of jobs from low skilled maintenance work to high 
level engineering that are expected to result as the world 
transitions away from fossil fuels. At a time when the U.S. 
economy is desperate for jobs and investment in future growth a 
slew of clean energy projects are on hold because of political 
stalemate in Washington. To spur more private investment in job 
creation the Federal Government must reassure Wall Street that 
the need for clean energy will grow, experts said.
    This is everything that the majority of this committee has 
been saying for about 2 years. So, Administrator Jackson, I 
want to thank you for starting to address the threat of global 
warming and for understanding the need to move to a clean 
energy economy.
    Again, I know that you are putting off enforcement. We 
understand that you would prefer a legislative solution here. 
So, my last point is, I am very happy to report that Senators 
Kerry, Graham and Lieberman are making progress in getting to 
that 60-vote threshold we need on a comprehensive approach. And 
Senator Kerry will be briefing you this week on the efforts.
    So, budgets are clear expressions of our priorities and the 
realities that you face as you protect our people from 
pollution, and I certainly look forward to this hearing.
    And with that, I will give Senator Inhofe an extra 1 minute 
and 46 seconds over his 5.
    Senator Inhofe. That is good.
    Senator Boxer. Senator.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. All right. Thank you very much, Madam 
Chairman.
    And I thank you, Madam Administrator, for being here. I am 
happy to say, in front of all of these people, I really do like 
you. You know, we have spent time in my office, we have talked 
about our kids and all that, and I just say that from my heart, 
and I want you to know that that is true.
    And I also want to thank you for what you have done, and 
your predecessors have done, to the most devastating Superfund 
site in America, the Tar Creek. And now you have carried the 
ball through and done even more than they did before, actual 
relocation of the residents in completing the work at that 
site. So, I want to thank you very much. That is the good news.
    Now, I want to talk about a different topic. This morning, 
I am releasing an EPW minority report. I think anyone who wants 
it now, as of this moment, can go to their Web site, or go to 
the Web site of Inhofe, what is that Web site? 
Inhofe.Senate.gov. It is a report on the scandal that has 
become known as Climategate.
    The minority staff found that some of the world's leading 
climate scientists engaged in potentially illegal and unethical 
behaviors. Many of these scientists have manipulated data to 
fit preconceived conclusions, obstructed Freedom of Information 
requests and dissemination of climate data, and colluded to 
pressure journal editors against publishing scientific work 
contrary to their own. In other words, they cooked the science.
    Now, going back to this obstruction of the Freedom of 
Information Act, that is one that is pretty serious. That was 
found to be true in the U.K., and the only reason they cannot 
prosecute under that is the Statute of Limitations has already 
run on it. So, the U.K. government found that the scientists 
from the Climate Research Unit, that is the CRU, who are at the 
center of this scandal, violated its Freedom of Information 
Act.
    And I know that people--I know it is important for people 
who have got 15 years of their lives wrapped up in this hoax to 
come up with, say, well, this is just a miscommunication, or 
something like that. But if you look and you see what is to 
happen overseas, the U.K. Telegraph, one of the largest 
newspapers over there, said this is most significant scientific 
scandal of our generation.
    Also, the minority report shows that many of the scientists 
involved in this scandal worked for the U.N.'s IPCC. They 
helped compile the IPCC's Fourth Assessment Report. Now, that 
is important because this report is a primary basis for the 
EPA's endangerment finding for greenhouse gases. The media has 
uncovered several errors and mistakes in the report which 
undermine the credibility of the IPCC's science. Let us take a 
closer look.
    The IPCC said global warming would--now listen to this 
because I am going to cover seven, but I could cover a lot a 
more than this--they said it is going to melt the Himalayas, 
the Himalayan glaciers by 2035. That is not true; it is a lie, 
it would destroy 40 percent of the Amazon rainforest; not true; 
another lie. It would melt mountain ice in the Andes, the Alps 
and Africa; not true. Drastically increase the costs of climate 
related natural disasters; not true. Drive 20 to 30 percent of 
species to extinction; not true. Slash crop production by 50 
percent in Africa by 2020, just flat not true. The Netherlands 
is 55 percent below sea level; not true.
    The EPA accepted the IPCC's erroneous claims wholesale 
without doing its own independent review. So EPA's endangerment 
finding rests on bad science.
    The EPW minority report provides further proof that the EPA 
needs to scrap the endangerment finding and start over again. 
But that is not what the EPA is doing. We have $43 million in 
new funding to regulate greenhouse gases. This is seed money 
for the most economically destructive regulatory initiative in 
this Nation's history. The Nation is mired in an unemployment 
crisis. People need jobs. Yet, once this effort commences, 
those fortunate to work will be out of work, and those looking 
for jobs are not going to find them.
    The Obama administration, however, is pressing ahead. We 
have been told that the science still stands. We have been told 
that the IPCC's mistakes are trivial. We have been told that 
Climategate is just gossipy e-mails between a few scientists. 
Yet, global warming alarmism has been sewed on the very notion 
that manmade greenhouse gases are causing environmental 
catastrophes, Himalayan glaciers melting and all that stuff.
    But now we know there is no objective basis for these 
claims that I have just talked about. Furthermore, Climategate 
shows there is not consensus. The science is far from settled. 
The Obama administration, then, is moving ahead with a massive 
job killing tax for no good reason. The minority report shows 
the world's leading climate scientists acting like political 
scientists.
    The bottom line is this. We--every effort was made going 
back to even before the McCain-Lieberman bills of 2003, 2005, 
and then, of course, all the rest of them that came along. They 
did everything that they could to try to get a majority, or try 
to get up to 60 Senators to embrace the idea that manmade 
anthropogenic gases cause global warming. They could not do it. 
The most votes there are in the U.S. Senate today for a cap-
and-trade legislation is maybe 20. And they need 60 the last 
time I checked. So, it is not going to happen.
    So, this Administration has said, all right, we could not 
do it legislatively, so we are going to do it on our own. We 
are going to do the damage, inflict the economic damage to this 
country that would have come under cap-and-trade, the same as 
if we had been able to pass it. Now, I think that is 
interesting.
    I would like to say this one thing. The Chairman made the 
statement that the Supreme Court is mandating this stuff. They 
are not mandating a thing. The Supreme Court said you have 
three choices. You can either find an endangerment finding, or 
not find it, or you can say that the science is uncertain. And 
I think what we are going to be asking you to do during this 
question and answer time is to find that it is not certain.
    You can have an endangerment finding. That can change. 
Because you did not know at the time that you were basing this 
on the IPCC flawed science, that the science was flawed. You 
did not believe that. But nonetheless, that is where we are 
today.
    So, we are going to be making the request, Madam Chairman, 
that we go back, re-look at this, and also that the EPA have 
their IG look into this just the same as all the other nations 
are doing at this time all throughout Europe.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Madam Chairman, thank you for calling this hearing today to 
discuss the EPA's fiscal year 2011 budget. I also thank 
Administrator Jackson for appearing before us today.
    I also want to thank Administrator Jackson for working with 
me to address the Tar Creek Superfund Site in Oklahoma. The 
relocation of the residents is complete, and we are continuing 
work on water quality issues as well as selling and removing 
the chat. I commend your dedication to this important issue and 
the important work of our friend, Sam Coleman, in the EPA 
Dallas Office.
    Now I want to turn to a different topic. This morning I am 
releasing an EPW minority report on the scandal known as 
``Climategate.'' The minority staff found that some of the 
world's leading climate scientists engaged in unethical 
behavior and possibly violated Federal laws.
    Many of these scientists appear to have:
     Manipulated data to fit preconceived conclusions;
     Obstructed freedom-of-information requests and 
dissemination of climate data; and
     Colluded to pressure journal editors against publishing 
scientific work contrary to their own.
    The UK government has already found that scientists from 
the Climatic Research Unit, or CRU, who are the center of this 
scandal, violated its Freedom of Information Act.
    Also, the minority report shows many of the scientists 
involved in this scandal worked for the UN's IPCC. They helped 
compile the IPCC's 2007 Fourth Assessment Report. That's 
important because this report is a primary basis for the EPA's 
endangerment finding for greenhouse gases. The media has 
uncovered several errors and mistakes in the report, which 
undermine the credibility of the IPCC's science.
    Let's take a closer look. The IPCC said that global warming 
would:
     Melt the Himalayan glaciers by 2035--it's not true;
     Destroy 40 percent of the Amazon rainforest--it's not 
true;
     Melt mountain ice in the Andes, Alps, and Africa--it's 
not true;
     Drastically increase the cost of climate related natural 
disasters--it's not true;
     Drive 20 to 30 percent of species to extinction--it's not 
true; and
     Slash crop production by 50 percent in Africa by 2020--
it's not true.
    And yes, the IPCC said the Netherlands is 55 percent below 
sea level--that's not true either. There's more, but I think 
I've made my point.
    EPA accepted the IPCC's erroneous claims wholesale without 
doing its own independent review. So EPA's endangerment finding 
rests on bad science. The EPW minority report provides further 
proof that EPA needs to scrap the endangerment finding and 
start over again.
    But that's not what EPA is doing. It wants $43.5 million in 
new funding to regulate greenhouse gases. This is seed money 
for the most economically destructive regulatory initiative in 
this Nation's history. The Nation is mired in an unemployment 
crisis; people need jobs. Yet once this effort commences those 
fortunate to work will be out of work, and those looking for 
jobs won't find them.
    The Obama administration, however, is pressing ahead. We've 
been told that the science still stands; we've been told that 
the IPCC's mistakes are ``trivial''; we've been told that 
Climategate is just gossipy e-mails between a few scientists. 
Yet global warming alarmism has been sold on the very notion 
that manmade greenhouse gases are causing environmental 
catastrophes--Himalayan glaciers melting, the Amazon 
disappearing, polar bears becoming extinct. But now we know 
there's no objective basis for these claims. Furthermore, 
Climategate shows there's no ``consensus''; the science is far 
from settled. The Obama administration, then, is moving ahead 
with a massive job killing tax for no good reason.
    This minority report shows the world's leading climate 
scientists acting like political scientists with an agenda 
disconnected from the principles of good science. It shows that 
the only consensus we have is that there's a lot we don't know. 
It's time for the Obama administration to recognize this and 
abandon a policy that will mean fewer jobs, higher taxes and 
economic decline.

    Senator Boxer. Thank you, Senator.
    Senator Carper.
    Senator Carper. I think that Senator Cardin might have been 
here before me.
    Senator Boxer. I am so sorry. Senator Cardin. You are 
correct.
    Senator Carper. That is OK. A lot of people mistake us for 
one another.
    [Laughter.]

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. First, Madam Chair, thank you very much.
    And to Administrator Jackson, thank you for your strong 
leadership at the Environmental Protection Agency. We very much 
see your influence on the budget that the President has 
submitted, and we are very pleased to see that this budget 
advances the priorities that are important for EPA in dealing 
with the threats of climate change, protecting our great water 
bodies and in investing in our Nation's water infrastructure.
    The President's budget includes three funding streams 
dealing with climate change, taking action now as required by 
the Supreme Court on regulatory programs to stem the flow of 
greenhouse gas pollutants, an investment of $25 million to help 
our State environmental agencies develop capacity to deal with 
GHG pollutants, and the further investment of $21 million to 
support the greenhouse gas reporting rules which will ensure 
collection of high quality data.
    Let me just point out the scientific information concerning 
global climate change is, I think, pretty convincing. But we 
can also just take a look at the facts of what is happening 
around the world.
    A third of the perennial arctic ice has melted in the last 
30 years. That is a fact. We have lost an area of sea ice equal 
to the entire United States east of the Mississippi. That is a 
fact. This past decade was the hottest ever, according to NOAA. 
That is a fact. And just this month, the Defense Department 
called climate change an accelerant of instability that could 
have significant geopolitical impact that may spark or 
exaggerate future conflicts.
    That is where we are today. So, global climate change is 
real. And I am pleased to see that the Administration's budget 
reflects a common sense investment in protecting us from 
greenhouse gas pollutants.
    I am also pleased to see the investment the agency plans to 
protect and restore our great water bodies. Thank you for that. 
The EPA proposes an additional $300 million in its continuing 
investment in Great Lakes protection. The Great Lakes are the 
largest source of fresh water on the planet, and we need 
concerted long-term investment in restoring this critical 
ecosystem. And we will have a hearing tomorrow that will deal 
with the Great Lakes.
    Similarly, the agency is proposing a $17 million investment 
in targeting non-point source pollutants in the Mississippi 
River Basin in an effort to protect the Gulf of Mexico. And 
most important of all, as I know the Administrator will 
recognize, your investment in the Chesapeake Bay, a record $63 
million to help implement President Obama's Executive Order on 
this national treasure.
    As your testimony notes the centerpiece of your Chesapeake 
Bay efforts is the implementation of the Nation's largest and 
most complex total maximum daily load program. It is a clean up 
plan to deal with the cumulative impact of more than 17 million 
people, 88,000 farms, 483 large wastewater treatment plants, 
thousands of smaller facilities, and many other sources in the 
64,000-square-mile watershed. As you know, I have introduced 
legislation along with my co-sponsor, Senator Carper, to 
restore the Chesapeake Bay to its rightful status as a national 
treasure.
    This budget request is a good step. But I will be working 
with my colleagues on the committee in the coming weeks to give 
you new authority and funding authorization to really get the 
job done.
    And finally, let me take note of the request that you have 
made in regards to water infrastructure, $2 billion for the 
Clean Water State Revolving Fund, $1.3 million for the Drinking 
Water State Revolving Fund. These are--based upon recent 
history, these are large increases from prior budgets that have 
been submitted by the previous Administration, and we 
appreciate the continued commitment that the Administration is 
making.
    I think we could even do better than the Administration's 
request. A number of my colleagues, including many sitting on 
this committee, are supporting a request of $5.4 billion in 
water infrastructure funding for fiscal year 2011. And we look 
forward to working with you to see whether we cannot get that 
number even higher than you have submitted, knowing the 
backlog, knowing how much we need to do in protecting our 
Nation's water and helping our local subdivisions. But I do 
compliment this Administration for its continuing commitment to 
water infrastructure projects.
    So, for the climate change, for the great water bodies, for 
our Nation's water infrastructure, I think the budget that you 
have submitted sets the right priorities. I look forward to 
working with you to make sure the budget that passes the 
Congress carries out these commitments.
    Thank you.
    Senator Boxer. Thank you.
    Let me read the list. On the Republican side, it is Bond, 
Vitter; on our side it is Carper, Whitehouse, Udall and 
Merkley. OK? Oh. Hi, Bernie. I did not see you come in. And 
Sanders.
    So, Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair.
    Welcome, Madam Administrator.
    I appreciate those kind words from my good friend, Senator 
Cardin. I happen to live in Maryland. I am glad that he could 
get in today because I was 15 minutes late getting around the 
mountain of snow that I have never seen before in Maryland to 
get in. And I realize that a heavy snowfall that canceled one 
of our global warming hearings is not, in itself, any evidence 
that, there is some uncertainty in climate change.
    Senator Cardin. If you need constituent service, please let 
me know.
    Senator Bond. If you would, bring a snow shovel down. My 
wife broke her snow shovel in this third snowstorm.
    [Laugher.]
    Senator Boxer. Send it up to Vancouver. They need it up 
there.
    [Laugher.]
    Senator Bond. The one thing that does concern me a little 
bit is when Dr. Phil Jones, the head of the Climate Research 
Unit, told the BBC on February 13th there has been ``no 
statistically significant warming over the last 15 years,'' and 
I think that is something that may warrant some discussion. But 
let me get onto the bipartisan concern over back door EPA 
carbon regulations to circumvent the stalled cap-and-trade in 
the Senate.
    On February 19th eight Democratic Senators wrote to you, 
Madam Administrator, with their serious concerns. These are 
Senators from West Virginia, Alaska, Ohio, Michigan, Missouri, 
Montana and Pennsylvania. They expressed their ``serious 
economic and energy security concerns.'' They wrote that ``ill-
timed or imprudent regulation''--and this was of greenhouse 
gases--may squander critical opportunities for our Nation, 
impeding the investment necessary to create jobs.
    They are ``concerned about the possible impact on American 
workers and businesses in a number of industrial sectors, along 
with farmers, miners and small business owners.'' They feel 
``they have a responsibility, the workers in the industries'' 
of their States to question their plans, and so do I. And that 
is the big concern.
    During consideration of legislation we learned it would 
kill millions of jobs, raise energy prices for everyday 
necessities like heating, power and gasoline, and collect 
trillions of dollars from American families, farmers and 
workers for new Big Government programs. And we have seen that 
some of these programs, wind and solar, are not created, they 
are bought. And too often they are bought in Asia. They are not 
bought in the United States to build this equipment.
    In many ways back door EPA carbon regulations will be worse 
because whatever flexibility and cost savings could come from a 
market-based program would be replaced by Government command 
and control.
    The author--the Democratic author of the Clean Air Act--
himself said it was never meant to cover carbon dioxide 
emissions. He may have realized then, as now, that carbon 
regulations would eventually drown farms, bakeries, 
restaurants, schools, churches, hospitals and apartments in 
expensive and burdensome red tape.
    We all know the EPA's vain attempts to make up new law and 
tailor the Clean Air Act to exempt small emitters will be swept 
away in the first court challenge. We also know that any 
legislation to codify a tailoring rule, along with back door 
EPA regulations, will result in millions of lost jobs and 
higher energy taxes. It is not a question of if but when.
    Madam Administrator, your letter yesterday announcing your 
decision to implement the rules in 2011 instead of 2010 can be 
seen as recognition of these concerns, or some have said that 
it may be a cynical ploy to delay the job killing until after 
the fall elections. But certainly anyone who supports your 
proposal is merely saying they want to start killing jobs and 
raising energy taxes in 2011 instead of 2010.
    Ironically, we do not even need back door EPA regulations. 
We can get reduction from cars and trucks through congressional 
and DOT action on CAFE auto efficiency. And the back door EPA 
carbon regulations will have no effect on the ``endangerment'' 
some perceive. Cap-and-trade, without similar actions here, 
without similar actions by China and India, will have no 
measurable impact. That provides pain without a purpose.
    We have better ways to cut carbon emissions, zero carbon 
nuclear power, low carbon biofuels, clean coal technology, 
clean burning natural gas, hybrid and all electric vehicle 
technology, energy efficiency, and other steps which make 
economic sense. This is a bipartisan agenda that will create 
jobs and not hurt families and workers.
    Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chairman.
    Let me just say, on the heels of what we have heard from 
Senator Bond, I am a major proponent of expanding our 
dependence on nuclear power. I believe in a country where we 
have more coal than Saudi Arabia has oil that maybe it does 
make sense--well, it does make sense, to be able to utilize 
those resources.
    I believe that one of the best ways to help fund the 
expansion of nuclear power and frankly to help fund expanded 
use of coal but doing it in a way that is clean, is through 
putting in place a market based system not unlike that which we 
put in place when George Herbert Walker Bush was President, 
with respect to sulfur dioxide.
    I have, Madam Chairman--let me just ask for unanimous 
consent to enter into the record a statement from the American 
Association for the Advancement of Science. Those are the folks 
who publish the Journal of Science. I will just read the first 
sentence, if I may. The American Association for the 
Advancement of Science has reaffirmed the position of the Board 
of Directors and the leaders of 18 respected organizations who 
concluded, based on multiple lines of scientific evidence, that 
global climate change caused by human activities is now 
underway and it is a growing threat to society.
    And it is not just a question of whether or not our planet 
is growing warmer. Some parts are growing warmer, some less so. 
But what we are seeing is a distortion of our weather patterns 
made perfectly clear by the enormous snows that we have had 
here in the mid-Atlantic and the dearth of snow that they have 
had in Vancouver where the Winter Olympics are being held.
    Senator Boxer. We will put that in the record.
    Senator Carper. Thanks very much.
    Administrator Jackson, thanks very much for joining us 
today. Thank you for your stewardship. Thank you for the 
Administration's budget proposals. As I understand it you have 
actually come with a budget that is a little bit under the 
current budget, the budget proposal is a little bit under, and 
you have indicated an interest or willingness or desire to 
increase funding for portions of the budget that I am 
especially interested in, and that is how do we clean up our 
air, how do we provide for healthy air for people in this 
country. You make, I think, some very good investments in State 
and local governments to help clean up dirty diesel emissions 
and to reduce greenhouse gas pollution.
    I just want to make one other comment, if I could. We have 
had testimony before this committee of very smart people, very 
smart investors. And the guy that always comes to mind is John 
Doerr, who made a fortune investing in Internet businesses and 
technology businesses in the 1990s. And he said before this 
committee, and he said in any other number of audiences that I 
have been a part of, if we really want to unleash an economic 
tsunami of jobs and economic opportunity, new jobs and 
employment in this country, what we need to do is put a price 
on carbon. He did not say that we needed to put a tax on 
carbon. He did not say that we had to put in place a market-
based system like we did with sulfur dioxide. He said we need 
to put a price on carbon.
    And my preference is to do that, do legislation as opposed 
to doing it through regulation. But one of the advantages of 
having the price for the regulation is to encourage the 
Congress to do what it needs to do, and that is to pass 
legislation.
    Thank you very much for your testimony today.
    [The referenced letter follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Senator Boxer. Thank you, Senator.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, and thank you, 
Madam Administrator, for being here and for all of your work.
    I am happy that at least the great focus and subject of 
this discussion so far is the uncertainty in the debate about 
climate change and in particular the recent revelations which 
are very significant in my mind in terms of questioning the 
basis of the science. And in that regard I want to underscore 
two things.
    First, you know, we all talk about the science and the 
facts. Well, it is beyond dispute that the EPA, in reaching its 
endangerment finding, relied first and foremost and primarily 
on the IPCC work. And it is also beyond dispute that these 
recent revelations of the last year raise very serious and very 
legitimate questions about that IPCC work.
    We can cite many things. I will just mention one quote from 
the Climategate e-mails where one of the parties involved 
stated, ``I cannot see either of these papers as being in the 
next IPCC report,'' talking about papers that are inconsistent 
with the conclusion they want to reach, ``Kevin and I will keep 
them out somehow, even if we have to redefine what the peer 
review literature is.''
    Now, I think there is a legitimate spectrum of opinion 
about what the significance of these revelations is. I think 
that is still developing, and Climategate is still developing. 
But I believe this notion that we can simply ignore it, forge 
ahead simply like it never happened, is not within that 
reasonable spectrum of opinion. And unfortunately that is the 
position that I hear from the Administration and too many folks 
in Congress. Just forge ahead, ignore it like it never 
happened. It is significant. And I hope, as a first, primary 
duty of this committee we look hard, and we look long and do 
the due diligence about these significant recent findings.
    I certainly want to echo a concern from a host of members, 
bipartisan, about the Administration forging ahead 
administratively with the endangerment finding. I welcome any 
delay, and so to that extent I welcome your Monday 
announcement. But I am completely opposed to forgoing ahead on 
that administratively. I do believe the only proper route for 
that policy is through Congress and encourage the 
Administration to focus on that route exclusively.
    I look forward to following up on all of these issues both 
today and in the future.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair, and I really 
appreciate your holding this hearing.
    You know, some of the Senators here today have been very 
critical of the U.N. climate program. I just want to remind 
them that the Los Alamos National Laboratory in New Mexico has 
done two of the four key models used by the U.S. climate 
program.
    These models use the same supercomputers we use to secure 
our nuclear stockpile. And when we say secure our nuclear 
stockpile, every year it has to be certified to the President 
that the nuclear stockpile is safe, secure and reliable. And it 
is done with these same supercomputers, and I can tell you that 
there is very, very extensive scrutiny of these kinds of 
models, and I believe we should have confidence in them.
    Administrator Jackson, reducing pollution--and I know you 
know this--reducing pollution and protecting public health is 
one of the key and best investments governments make. And 
clearly these investments are sorely needed. For example, the 
budget's $3 billion in Clean Water and Safe Drinking Water Act 
Revolving Funds is only a small portion of the great need in 
our Nation. And I think we clearly need to do more on that 
front.
    I am personally familiar with many of the rural and tribal 
communities in New Mexico with aging or incomplete clean water 
infrastructure. I commend the President and the Administrator 
for dedicating relatively small but significant resources to 
EPA's climate related activities.
    Global warming pollution is also one of the greatest 
threats to public health and the environment, and our reliance 
on foreign oils is one of the greatest threats to our national 
security. Any EPA action should be targeted, transparent, and 
allow for a smooth transition to a lower carbon economy.
    Administration Jackson's recent public description of the 
agency's planned course of action was very helpful, and I look 
forward to working with the EPA in the coming year. I do not 
think we should forget that the place we are in America right 
now, looking in terms of the world, is we are all looking at 
what is going to be the second industrial revolution. And the 
competition is going to be for clean energy jobs in this 
industrial revolution. And the way to get there, as Senator 
Carper and the Chairman and others have said, is to put a price 
on carbon and carbon dioxide emissions. That will move us in 
the right direction.
    So, we need to be cognizant of where we are in the world in 
terms of the kind of competition that is out there. We have 
countries like China which do not have to go through the 
democratic processes that we do, that order factories to move 
to deal with their air pollution. And it happens in a very 
short period of time.
    And so we need to act quickly here; we need to act with 
deliberation. But we also, I think, need to be careful, and 
Madam Administrator, I think you showed that in your letter in 
your approach to this.
    So with that, Madam Chair, I would yield back.
    Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso, welcome.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. And 
thank you, Administrator Jackson, for being with us today.
    Under the President's proposed Environmental Protection 
Agency budget the EPA will continue its unprecedented high 
funding levels. According to the White House the EPA will 
receive $10 billion of U.S. taxpayer dollars this year, a 
substantially higher amount than requested under any previous 
Administration. The Administration states that this amount will 
strengthen the EPA's program implementation, research, 
regulation and comprehensive enforcement activities.
    Well, in a time where funding is scarce and other Federal 
agencies are taking a hit it is clear that the EPA will 
continue its unprecedented growth. I believe this is a clear 
signal where this Administration's priorities are as stated on 
their Web site. The funding goes to the ramp up of EPA's 
regulatory and enforcement efforts.
    The President has always made it clear that expanding 
environmental regulation is a priority. With this funding EPA 
will be able to expand its regulations and red tape on small 
and large businesses, rural and urban towns, hospitals, nursing 
homes and schools all across America.
    These are job killing regulations. They will cost millions 
of Americans their jobs. It is an Administrative priority, it 
is the majority's priority, and it is a special interests' 
priority. Unfortunately it is not an American priority.
    Creating jobs is America's No. 1 priority. Unemployment is 
now at 9.7 percent nationally. Regionally many States have a 
much higher rate. This does not factor in the unemployed who 
have simply given up on trying to find a job.
    We need jobs. Not just green jobs, but red, white and blue 
jobs. Unfortunately, the EPA's budget creates jobs on K Street 
while wiping them out on Main Street. The biggest example is 
the Environmental Protection Agency's endangerment finding, 
which starts the process of taxing everything Americans do, 
from driving their cars to heating their homes to powering 
their small businesses.
    Small business is the key to economic growth and job 
creation in this country. In the past 15 years small business 
owners have been responsible for 64 percent of all job created 
in America.
    I just returned from a week in Wyoming meeting with small 
business owners throughout the State. They are concerned about 
the reach of Washington, and most especially the EPA, into 
their lives. They are afraid of what is going on in Washington, 
that what is going on in Washington will ruin their 
livelihoods. The EPA's budget says it all. They are right. The 
only people who are going to benefit from many of these 
policies are the Washington environmental special interests and 
their lobbyists, not the American people.
    I believe we can protect the environment while still 
providing for economic growth, the kind of growth that creates 
the green jobs and the red, white and blue jobs all across the 
Main Streets of all of this great Nation.
    So, let us get this right and get our priorities straight.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you very much, Senator Barrasso.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Well, thank you very much, Madam Chair.
    As I am listening to this conversation I am reflecting back 
on how every single time in this Nation when we have confronted 
great damage to our air or to our water it is always the same 
mantra: it will kill jobs. And every single time, when we look 
back 10 years later or 20 years later, we are so thankful that 
we actually created jobs by cleaning up our waterways, we 
created jobs by cleaning our air. And we are going to create 
jobs by cleaning up carbon dioxide pollution as well.
    I can tell you it absolutely infuriates me that we are 
spending $1 billion a day on oil from the Middle East and 
countries like Venezuela that do not share our interests. Now, 
I just came back through Kuwait. And they are building gorgeous 
towers with our American money. And if you want our dollars to 
go out of this country and build towers in Kuwait then go on 
fighting for that policy.
    But if you want to create jobs in America let us keep that 
money here. Let us create red, white and blue jobs in America, 
creating renewable energy, and keep those dollars in our 
economy rather than sending them overseas so that dictators in 
faraway countries can build shiny new towers.
    I think we need to have a direct conversation about the 
damage to our national security of dependence on oil overseas. 
We need to have an honest conversation about the hemorrhaging 
of our dollars going overseas rather than creating jobs here in 
America. And we need to have an honest conversation about the 
impact of carbon dioxide pollution. And the EPA is right in the 
middle of that conversation.
    And thank you for putting together a budget that presents a 
responsible and honest and straightforward approach to taking 
on this challenge and the challenge of creating jobs here in 
America. We can create jobs as we work to change the use of 
carbon dioxide being produced by our vehicles. We can take and 
produce a tremendous number of jobs as we pursue energy saving 
retrofits in our buildings. We absolutely have the chance to 
take and develop energy here so that we are making our energy 
payments to Americans, not to Kuwaitis.
    So, I look forward to your presentation, and let us get on 
with it.
    Thank you.
    Senator Boxer. Thank you.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair, and let me concur 
with Senator Merkley.
    We have the potential to create millions of good paying 
jobs in energy efficiency, in wind, solar, geothermal, biomass, 
when we find we have the courage to say there is something 
absurd about bringing into this country $350 billion worth of 
foreign oil every single year, which makes us vulnerable from a 
geopolitical point of view, does not give us energy 
independence, and as Senator Merkley said makes the Saudi Royal 
Family--one of the richest families in the world--even richer.
    But I want to get on to another issue. Madam Chair, this 
country faces many, many problems, not the least of which is we 
have national leaders who are rejecting basic science. China is 
growing engineers and scientists, India is growing by the tens 
of thousands scientists and engineers, and we have national 
leaders who are rejecting basic scientific work.
    I find it incredible, I really do, that in the year 2010 on 
this committee there are people who are saying there is a doubt 
about global warming. There is no doubt about global warming. 
The scientific community is almost overwhelmingly united in 
saying that global warming is real. In fact, our own National 
Academies of Science joined with academies in all G8 countries 
to issue a statement in 2009 that ``climate change is happening 
even faster than previously estimated.''
    The U.S. Global Change Research Program, led by top 
scientists and Federal agencies, has stated that ``global 
warming is unequivocal and primarily human induced.'' An MIT 
report in 2009 showed that we face an increase of up to 11 
degrees Fahrenheit in global average temperature this century, 
worse than what was predicted only a few years ago.
    Yes, among many, many thousands of scientists working on 
it, people made mistakes. Well, you know what? Sometimes even 
my Republican colleagues make mistakes. I have heard Republican 
colleagues, for example, say that the stimulus package created 
no jobs. That is a mistake, among many other mistakes that my 
Republican colleagues make. But it is dangerous to reject 
scientists.
    Now, I want to mention, in the State of Oklahoma, I do not 
know much about Oklahoma, but the Oklahoma Climatological 
Survey, Oklahoma's State Climate Office published an official 
statement on climate change in the winter of 2007-2008. This is 
what they said. Warming of the climate system is unequivocal, 
as is now evident from observations of increases in global 
average air and ocean temperatures, widespread melting of snow 
and ice, and rising global average sea level.
    The Oklahoma Climatological Survey has been mandated by the 
Oklahoma legislature to provide climate information and 
expertise which could be of value to the public as well as the 
State policy and decisionmakers. That is what the Oklahoma 
legislature has mandated.
    I frankly think that when we are debating the reality of an 
issue that can bring devastatingly negative impact to this 
entire planet we become laughingstocks of the entire world. 
That is what we become. And I think using, for political 
reasons, the fact that there are a few mistakes among thousands 
of scientists, and distorting reality, do this country and the 
world no good.
    If you want to protect the oil interests get up there and 
say we are protecting the oil interests. You want to protect 
coal, protect coal. That is not a problem. We understand a lot 
of campaign contributions come in here. Fine. But let us not 
argue about what the overwhelming majority of scientists in 
this country agree on, and let us, in my view, go forward to a 
clean energy future.
    Now, I would say to Lisa Jackson, keep up the very, very 
good work. Our children and our grandchildren depend on the 
transformation of this energy system away from fossil fuel, and 
we have the potential to make huge changes to grow the kinds of 
millions of jobs that we desperately need if we are prepared to 
listen to scientists and go forward, I think, on energy 
efficiency and sustainable energy.
    Thank you, Madam Chair.
    [The referenced statement follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    
    Senator Boxer. Thank you very much, Senator.
    I believe we have gone through our list of Senators. So, 
Administrator Jackson, you have been very patient. We welcome 
you, and the floor is yours.

         STATEMENT OF LISA P. JACKSON, ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Jackson. Thank you, Chairman Boxer. Greetings to you, 
greetings to Ranking Member Inhofe. I would greet Senator 
Vitter with a hearty Who Dat, but he stepped out for a second. 
And please convey, through the Chair, my well wishes to my home 
State Senator, Frank Lautenberg.
    Senator Boxer. I will.
    Ms. Jackson. I always miss his presence and certainly miss 
him today.
    Thank you for the opportunity to appear before you to 
discuss EPA's budget for fiscal year 2011. To members of this 
committee, I heard all of your opening statements, and I 
appreciate the opportunity to present a budget that fully 
reflects President Obama's and my commitment to environmental 
protection and to ensuring that all families across the country 
have access to clean air, clean water, clean land.
    Much work has gone into this budget over the last year, and 
I am proud that it supports my key goals for the Agency. 
Specifically, this budget is a framework to address climate 
change, to improve air quality, to assure the safety of 
chemicals, to clean up our communities, to protect America's 
waters, to expand the conversation on environmentalism and work 
for environmental justice, and to continue to build strong 
State and tribal partnerships.
    Let me touch on some of the highlights of this budget that 
will protect human health and the environment and lay a new 
foundation for our prosperity.
    Let me begin by being direct. The science behind climate 
change is settled, and human activity is responsible for global 
warming. Not only have America's top scientific institutions 
come to that conclusion, but so have numerous other 
industrialized countries.
    That conclusion is not a partisan one. The Senate has twice 
passed, on a bipartisan basis, a resolution finding that 
greenhouse gas accumulation from human activity poses a 
substantial risk of increased frequency and severity of floods 
and droughts. Many on this committee, including from the 
minority, supported that resolution.
    This budget reflects the science and positions EPA to 
address this issue in a way that will not cause an adverse 
impact to the economy. The budget includes a requested increase 
of more than $43 million for efforts aimed at taking action on 
climate change. The bulk of this funding, fully $25 million, is 
for States, specifically for State grants focused on developing 
the technical capacity to address greenhouse gas emissions 
under the Clean Air Act.
    It also includes $13.5 million in funding for implementing 
new emission standards that will reduce greenhouse gas 
emissions from mobile sources such as passenger cars, light 
duty trucks and medium duty passenger vehicles, a rule that I'm 
pleased was supported by the States, the auto industry and by 
many stakeholders.
    This budget also requests an additional $3.1 million to 
promote work on current and future carbon capture and 
sequestration projects.
    While addressing global warming the budget also takes steps 
to ensure that the local air quality is also good for all, 
including those with respiratory problems. To improve air 
quality EPA will continue our support of enhanced monitoring 
and enforcement efforts. This budget requests $60 million for 
State grants to address new and expanded national ambient air 
quality standards as well as air monitoring requirements. Also, 
this budget provides $6 million to improve air toxics 
monitoring capabilities and address compliance and enforcement 
issues in local communities.
    But toxins are found in not only our air emissions but in 
many of the common chemicals that we use every day, and we have 
an obligation to the American people to ensure these chemicals 
are safe. At the end of 2009 EPA released the first ever 
chemical action plans for four groups of substances, and more 
plans are in the pipeline for 2010.
    In this budget EPA proposes $56 million for chemical 
assessment and risk review, including continued development of 
chemical management plans to ensure that no unreasonable risks 
are posed by new or existing chemicals.
    This budget also promotes new and innovative strategies for 
cleaning up communities to protect sensitive populations such 
as children, the elderly, and individuals with chronic 
diseases. This budget proposes $215 million for brownfields, an 
increase of $42 million, to support planning, clean up, job 
training and redevelopment of brownfields properties, 
especially in underserved and disadvantaged communities.
    In addition this budget proposes $1.3 billion for Superfund 
clean up efforts across the country. Clean up of contaminated 
properties takes pollution out of communities and puts economic 
opportunity, jobs, back in.
    Protecting America's waters is a top priority for EPA due 
to the tremendous impacts water quality has on human health, 
environmental health and economic health. For 2011 this budget 
reflects EPA's commitment to upgrading drinking water and 
wastewater infrastructure with a substantial investment of $2 
billion for Clean Water State Revolving Fund and $1.3 billion 
for the Drinking Water Fund. That will initiate approximately 
800 clean water and 500 drinking water projects across America.
    Also the fiscal year 2011 budget request supports numerous 
national ecosystem efforts, $300 million for the Great Lakes, 
$63 million for the Chesapeake Bay Program. These programs will 
address critical issues such as contaminated sediments and 
toxics, nonpoint source pollution, habitat degradation and 
loss, and invasive species, including the Asian carp.
    We have also begun a new era of outreach and protection for 
communities historically under-represented in environmental 
decisionmaking. We are building strong working relationships 
with tribes and communities of color, economically distressed 
cities, towns, young people and others.
    But this is just a start. We must bolster our relationships 
with our State and tribal partners. These are areas that call 
for innovation and bold thinking, and I am challenging all of 
our EPA employees to bring vision and creativity to our 
programs.
    Thank you very much for allowing me to briefly go through 
these highlights. I am happy to answer any questions you may 
have.
    [The prepared statement of Ms. Jackson follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    Senator Boxer. Thank you very much.
    I wish that Senator Vitter was here because he said he was 
very pleased, and I am quoting him, that we focused on ``the 
uncertainty over climate change.'' His words. And I just want 
to make it clear for the record that ``uncertainty about 
climate change'' is coming from some colleagues on the 
Republican side, and not one colleague on the Democratic side 
has expressed in any way any feeling of uncertainty. On the 
contrary they feel very certain about it. And we have voted out 
a very strong bill on this committee which I am very proud of.
    And I want to say to Senator Inhofe, who is very eloquent 
in his denying global warming is happening, that in my opening 
statement I did not quote one international scientist or IPCC. 
I quoted the National Oceanic and Atmospheric Administration, 
NOAA, I quoted NASA, the National Aeronautics and Space 
Administration, I think they know what they are talking about, 
and the AAA, in this case the American Association of the 
Advancement of Science. And of course in the past we continue 
to quote the defense establishment, the CIA, the DOD and many 
retired military people who tell us that this is a great 
threat.
    I want to really point that out. I think it is very fair 
that we disagree on whether or not there is climate change. 
That is fair. But the facts are the facts. I am quoting 
American scientists, No. 1. No. 2, I also quoted what is 
happening on the ground, and that is crucial. I mean we have 
been keeping records for 130 years, and we have had the longest 
decade in that time. And we can track the ice.
    So, I think there are two things I wanted to dispel. We are 
quoting the American scientific community here, and we are 
talking about facts on the ground, what has been observed over 
the last decade, because climate change is about decade to 
decade, not day to day.
    I appreciated this opportunity on both sides to express our 
views. But let me be very clear. The majority of this 
committee, in strong numbers, believes that we must act, and in 
fact we have acted.
    I also want to say how much I miss Senator Lautenberg being 
here. I know he is on the mend, and I know that I speak to 
everyone in sending him our very, very best.
    Administrator Jackson, the San Joaquin and South Coast Air 
Quality Management Districts in California have some of the 
most polluted air in the Nation. I believe you know that. And 
this pollution worsens asthma attacks, cardiovascular diseases 
and other illnesses, and our children are especially 
vulnerable.
    EPA cut funding for Federal grants to reduce pollution in 
these areas. Has anything changed with pollution levels in 
these areas that it should not be treated as a top priority?
    Ms. Jackson. The air pollution in those areas, Chairman, is 
certainly a priority as reflected in the work that has gone on. 
There have been changes, there has been good work funded by 
previous earmarked grants for those air districts, and yes, you 
certainly are right in noting that this budget does not propose 
to continue those earmarks.
    Senator Boxer. Well, but there are earmarks for other 
areas, and they are pointed out here. For example, Alaskan 
native villages. There are a number of earmarks in here. Can I 
just further this conversation and write to you about this? 
Because we are worried. There is infrastructure assistance for 
the Mexico border, there are certain areas that are named. And 
this area, because it is a valley, is really hit hard. And I am 
disturbed.
    Now, I want to ask you about the Superfund. We are going 
from 22 clean ups to 25 clean ups, and I am a little concerned 
that we are not being aggressive enough. Can you explain to me 
why that is the case here? We are only going from 22 to 25 
clean ups.
    Ms. Jackson. The additional money provided to the Superfund 
program, in the American Recovery and Reinvestment Act, the 
stimulus funding, as well as the straight line funding that we 
see in this proposed budget, does not allow for a huge increase 
in the number of Superfund sites that will be completed.
    I share your concern, Chairman, that what this program 
needs is money. This is certainly a year of tough choices, 
however, and in working with the White House to craft this 
budget what we did was try to find a level of funding that 
allowed the program's clean ups to continue, realizing that 
certainly more money would be great. But we had tough choices 
to make.
    Senator Boxer. OK. Well, let me say I am going to be 
talking with you about some of those choices. And another one I 
have been working with you on, and I appreciate your staff, is 
that we have got arsenic that has been found in the water in 
some of our poorest communities in California. And my concern 
is while they get ready to do a regional water quality control 
and all the rest of it we are just not helping these 
communities right now. They cannot drink the water. It is 100 
percent more arsenic, doubling of the allowable amount.
    So, can we continue to work together to see if we can find 
a solution while we clean up the source and the problem? We 
need clean water for these kids to drink, and these are our 
poor communities. Can we work together on that and----
    Ms. Jackson. Chairman, I would look forward to working with 
you on that.
    Senator Boxer. I know other communities may have this as 
well.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman. I have sat here 
for years now listening to this, and I know the distinguished 
Senator from Vermont wants so badly to believe that the science 
is settled and that anthropogenic gases cause global warming, 
and the science is not settled.
    I mean, Phil Jones is the scientist at IPCC. He is the top 
guy. He was the one at East Anglia, it is kind of the 
clearinghouse for all of the scientists. He is the one who is 
under investigation right now. And he said 2 weeks ago, ``I do 
not believe the vast majority of the climate scientists think 
the debate is over.'' This is a clear statement by the guy that 
is in charge of all of this stuff. So, you know, you can want 
to believe something so badly that you just go ahead and 
believe it. And I guess that is all right.
    Now, because of the short time, I am going to ask two 
questions that require just a yes or no answer or I do not know 
or I do not want to answer. I do not care, either way. One of 
your quotes, Madam Administrator, was the EPA's view that ``the 
scientific assessments of the IPCC represent the best reference 
material for determining the general state of knowledge on the 
scientific and technical issues of climate science.'' Do you 
still agree with that statement?
    Ms. Jackson. I think it is out of context, Senator. The 
IPCC is certainly important. It represents multiple lines of 
evidence and much data.
    Senator Inhofe. OK, well, this was a statement. I want to 
ask you one other question. Over the past several weeks, as I 
have noted in my opening statement, the media has uncovered 
significant errors and non-peer reviewed material in the IPCC's 
Fourth Assessment Report including mistakenly claiming that 
global warming would melt the Himalayan glaciers by 2035, 
endanger 40 percent of the Amazon rainforest, slash crop 
production by 50 percent and others that are on this that I 
used in my opening statement.
    Now, do you still believe, as you have stated before, that 
the IPCC is the gold standard for climate change science?
    Ms. Jackson. The primary focus of the endangerment finding 
was on climate threat risk in this country. I notice that all 
of the things listed on that sign are international events. So, 
the information on the glaciers and other things does not 
weaken or undermine the science that EPA reviewed to look at 
the endangerment to human health and welfare----
    Senator Inhofe. OK. Administrator Jackson, many in the 
media, and the media has been by and large almost entirely on 
their side of this issue all the time because that is where 
they can sell the stuff, but the media and the scientific 
community have called on the IPCC to launch a full 
investigation or to institute reforms on how it reviews 
scientific work.
    Now, I would think at least we would agree that if everyone 
else in the country, and the magazines like Time Magazine, 
Newsweek, New York Times, Chicago Tribune, the Financial Times 
and almost all publications in Europe, are calling on 
investigations and are doing investigations. Would you be 
willing to ask your--the EPA IG, to investigate the IPCC 
science?
    Ms. Jackson. The investigations that are ongoing mirror 
reviews that EPA scientists did in making the endangerment 
finding. It is incumbent on me as Administrator to review any 
new information as it comes out, and if anything changes the 
multiple lines of evidence from many, many sources, Senator, 
not just the IPCC, then certainly I would call for a review of 
the finding. But I have not seen that.
    Senator Inhofe. Well, I would say that no, I do not think 
that is totally accurate. The statement that you said in 
response to me in a letter, and this was, I do not have the 
date on it but it was just a short while ago, where's the 
chart? Hold that chart up. That one.
    [Chart shown.]
    Senator Inhofe. This is the chart where we were showing 
during the last hearing or one of the last hearings, we had 
about 40 hearings on this, that U.S. action alone will not 
impact the CO<INF>2</INF> levels. Your quote was, I believe, 
that central parts of the EPA chart, this chart right here, are 
that the U.S. action alone will not impact world CO<INF>2</INF> 
levels.
    Now, that is a statement that I think we all agree on, and 
it complicates this. Because when you talk to normal people, 
now I am talking about people outside of Washington, and you 
point out to them that even if we were willing to have passed 
some kind of cap-and-trade legislation or do it legislatively 
or do it through the Administration, that it is going to cost 
all the jobs, and you know people will deny this on the other 
side, but MIT, the Wharton School, CRA, all of them agree that 
this would constitute something like a $300 billion to $400 
billion tax increase on the American people, that it would 
destroy our economy.
    And with all of that in mind I would just say this. Now I 
am going to save this for the second round of questions, but I 
want you to be thinking about it. How in the world can we 
justify doing something administratively that the Congress 
overwhelmingly rejected, the U.S. Senate did, and saying 
defiantly, we do not care what you say, Congress, we are going 
to go ahead and do it under the Clean Air Act, we are going to 
make the endangerment finding in spite of the fact that the 
endangerment finding by your own admission is due to the 
science from the IPCC. Now that is what I am going to be 
talking about in the next round of questions.
    Ms. Jackson. Do you want me to answer now or wait for the 
next round?
    Senator Inhofe. Sure.
    Senator Boxer. Go ahead.
    Ms. Jackson. Senator----
    Senator Boxer. I think you should answer the question.
    Ms. Jackson. I will be brief, and we will talk about it in 
the next round, Senator. But just to be clear, the Supreme 
Court, the law of the land, found that greenhouse gases are 
pollutant. They ordered EPA to make a determination as to----
    Senator Inhofe. They did not order. They said you have 
three choices. Is that not correct?
    Ms. Jackson. They said that EPA can, must make a 
determination whether or not----
    Senator Inhofe. Can. You said it right the first time.
    Ms. Jackson [continuing]. Must make a determination whether 
or not greenhouse gases endanger human health and welfare, and 
rather than ignore that obligation I chose as Administrator, 
and I believe I had no choice but to follow the law.
    Senator Inhofe. Well, the three choices they gave you were 
to go ahead and find an endangerment, do not find an 
endangerment, or review the science. And that, obviously, well, 
those were the three choices that were there.
    Ms. Jackson. And I believe we reviewed the science, 
Senator. We do not agree on what the science says, but in my 
mind, the conclusions we have drawn are based on the best 
science we have and are backed up by numerous bodies that are a 
lot smarter on these things than I am.
    My favorite quote on this is actually by Senator Alexander 
who, sadly, is not here. He said 11 academies in industrialized 
countries say that climate change is real and humans have 
caused most of the recent warming. If fire chiefs of the same 
reputation told me my house was about to burn down I would buy 
some fire insurance.
    Senator Inhofe. And that is the debate that has been going 
on here for 7 years now. I recognize that it was 7 years ago 
that I made the statement that the idea that the anthropogenic 
gases are causing catastrophic global warming is probably the 
greatest hoax ever perpetrated on the American people. I think 
that is proven to be true today.
    Senator Boxer. OK, we clearly have given you extra time.
    Senator Inhofe. I appreciate it.
    Senator Boxer. And it is interesting that you still hold to 
your greatest hoax ever perpetrated, because I would like to 
hear you debate it with NASA and NOAA and all of these 
scientists. I think it is incredible.
    I would like to call on Senator Cardin now.
    Senator Cardin. Thank you, Madam Chair.
    Administrator Jackson, one of the things that might be 
helpful in this debate is the cost-benefit analysis because we 
can argue as to the science on climate change, I think it is 
pretty clear, but one point is indisputable, and that is 
investing in clean energy in ways that will reduce greenhouse 
gases is going to be good for economy and create jobs.
    The No. 1 issue right now facing the American people, the 
American economy, is creating jobs. There was an article in 
today's paper that showed that the United States is falling 
well behind China, for example, in green technologies and green 
jobs. This will not only help us with energy independence, it 
will not only help us with dealing with the issue that you must 
deal with, greenhouse gas emission reductions, but will also 
help us create jobs in America, which I think we all want to 
do.
    So, I think the cost-benefit analysis is something that is 
going to be very helpful for us. But I hope you do it in a 
broad context as to if we do this right. And that is what the 
Chairman has been working on very strongly with other members 
of the U.S. Senate, developing legislation that is done right 
that will create jobs in this country, put America back to work 
and at the same time be responsible as far as our greenhouse 
gas climate change commitments are concerned.
    I want to just at least get on the record the water 
infrastructure budget which I think is very important to our 
commitment. I just really want to get the numbers out. The 
budget requests would actually be a slight reduction over the 
current year from $3.5 billion to $3.3 billion in the two 
programs, but it is significantly greater, in fact, it still 
more than doubles what the program received in fiscal year 
2009.
    And as I think the Administration has pointed out there has 
been $6 billion made available in the American Recovery and 
Reinvestment Act.
    So, I just want to get your reaction to the importance to 
continue our investment in the water infrastructure projects. 
We have a bipartisan bill that has been reported out of this 
committee that would reauthorize these programs at the higher 
levels. I think there is strong bipartisan support. We 
understand the importance for investment in America's future 
and how we need to make sure we have proper wastewater 
treatment as well as safe drinking water.
    Ms. Jackson. Thank you, Senator. Maybe I will let the 
States' actions speak for themselves. The recent $6 billion in 
the Recovery Act had to be under contract by February 17th of 
this year. And I am proud to report, as you already know, that 
100 percent of the States and territories made it. Not one dime 
of the $6 billion that went for drinking water and sewage 
infrastructure had to be reallocated. That is because there is 
such a need out there.
    And States did it different ways, whether it was to help 
rural communities where a couple of hundred thousand dollars 
makes all the difference or large cities that are facing 
ongoing concerns about antiquated sewer systems or drinking 
water systems. The money is there, the need continues to be 
real, and I was never so proud of our partners in the States 
and also our own staff in making sure that money, along with 
the money we get in this year's budget, heads out the door.
    Senator Cardin. Well, thank you. And that is good work. And 
you are absolutely right. If we had more money in the ARRA we 
would have gotten more money out there. Believe me, the demand 
is there and we need to move forward. It also helps us, of 
course, in so many different areas including, by the way, in 
cleaning up the Chesapeake Bay with the wastewater treatment 
moneys that are being used.
    I want to get on the record one other issue here which is 
similar to the debate on greenhouse gas emissions which the 
Supreme Court ruled on. The TMDL Program for the Chesapeake Bay 
is as a result of a court case in 1999, and the dates are 
coming pretty soon that these programs must be implemented 
under current law.
    The legislation that Senator Carper and I have introduced 
is an effort to give additional tools so that it makes it a 
little bit easier to accomplish these goals and sets up an 
orderly process. But could you just review for us why the TMDL 
is being implemented now in reaction to the 1999 court case?
    Ms. Jackson. Well, you know, we could talk lofty regulatory 
action, but I think the truth of the matter is that both 
popular media and scientists have reported that the Bay, while 
some strides have been made, really is not being cleaned up at 
the rate that Congress foresaw when we first started paying 
attention to the Chesapeake Bay Program. That is why President 
Obama issued an Executive Order for the Chesapeake Bay. It is 
why that order fully contemplates that EPA will remain 
steadfast in promulgation and finalization of the TMDL as well. 
And we simply must restore that national treasure.
    Senator Cardin. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Administrator Jackson, you made the newspaper today. This 
was the Washington Post, Tuesday, February 23rd, EPA Chief Lays 
Out Timetable for Regulating Greenhouse Gas Emissions. Last 
year, in California, you spoke at the California Governor's 
Global Climate Summit in Los Angeles. You stated, in regards to 
your proposed Tailoring Rule, you said, by using the power and 
authority of the Clean Air Act, we can begin reducing emissions 
from the Nation's largest greenhouse gas emitting facilities 
without placing an undue burden on the businesses that make up 
the vast majority of our economy.
    You went on to say this is a common sense rule that is 
carefully tailored to apply to only the largest sources, those 
from sectors responsible for nearly 70 percent of the U.S. 
greenhouse gas emission sources.
    This--now you say the EPA does not intend to subject the 
smallest sources to Clean Air Act permitting for greenhouse gas 
emissions any sooner than 2016. Well, is there a discrepancy 
here? Are small emitters such as hospitals, schools, nursing 
homes, other small businesses going to be captured after all in 
just a few short years by going beyond your tailoring rule to 
now incorporating this and capturing others?
    Ms. Jackson. I am not sure I understand the question, 
Senator, but I will try. Let me know if I do not get your 
question, if I do not understand the gist of it.
    Senator Barrasso. Well, the gist of it is that in the past 
you said we are only going after the big emitters, we are not 
going after the small emitters, we are just going after the big 
guys because that is 70 percent of the problem. And now it 
seems that you are saying well, we are only going to go after 
the big guys now, but come 2016 we are going after everybody.
    Ms. Jackson. I see. I would refer you, Senator, to the rule 
proposal, the actual tailoring rule proposal, which talks about 
phasing in, about moving toward large sources at first and then 
phasing in the implementation of the Clean Air Act.
    I think that a very important thing to remember is that the 
U.S. Supreme Court told us that we had to follow the law under 
Mass. v. EPA, specifically the Clean Air Act. I acknowledge 
that we have to do that.
    The other thing is to recognize that one of the things that 
has happened as a result of public comment is we have received 
very good and numerous comments, especially from the States who 
would have to implement the Clean Air Act, States who frankly 
want to implement the Clean Air Act for greenhouse gases, about 
how administratively they would do it, how much time they need, 
and how to avoid an absurd result. All of those things are 
reflected in the information I included in the letter 
yesterday, and of course will be reflected in the final rule 
when----
    Senator Barrasso. So, I take it as a yes that you do plan 
to then go after small emitters after 2016----
    Ms. Jackson. What we plan is to use the Clean Air Act in a 
reasonable and step-wise approach with lots of time so people 
will know it is coming----
    Senator Barrasso. So it is still a yes, though? It is still 
a yes.
    Ms. Jackson. Well----
    Senator Barrasso. I have got to get onto another question. 
That is how I am hearing your answer.
    We have heard from the Chairman about how you used NOAA and 
NASA to provide justification for taking regulatory action to 
address climate change. I wonder if you are aware of a report 
released in January entitled Surface Temperature Records, 
Policy Driven Deception by the Science in Public Policy 
Institute. The report says that the U.S. Government scientists 
have skewed global temperature trends by ignoring readings from 
thousands of local weather stations around the world, 
particularly those in colder altitudes and more northerly 
latitudes such as Canada.
    The study alleges that NOAA systematically eliminated 75 
percent of the world stations with a clear bias toward removing 
higher latitude, high altitude and rural locations, all of 
which have a tendency to be cooler. This includes temperature 
stations in the United States, Russia and China.
    The report states that the remaining temperature monitoring 
stations have been impacted by contamination of urbanization, 
changes in land use, improper siting and inadequately 
calibrated instrument upgrades which have further overstated 
global warming over the last two decades. The result has been a 
global surface temperature record that is warmer than truthful.
    I want to know if your department has reviewed this data, 
and if not would you be willing to review the study and 
consider it in making any future decisions based on climate 
change?
    Ms. Jackson. I believe, Senator, that my colleagues at NOAA 
and NASA have received this study. I certainly heard about in 
the press and am planning to respond to it. We will certainly 
work with them as we have as part of the U.S. Global Change 
Research Program to ensure that the data upon which our 
endangerment finding is based remain valid. That is my 
obligation as EPA Administrator.
    Senator Barrasso. I believe you would not tolerate it if 
scientists within the agency released scientific data to the 
public and to the Congress which was suppressed data, 
suppressed data that contradicted their study and their 
conclusions, that intentionally included false scientific data, 
intentionally included unpublished and non-peer reviewed work 
in a finished work product, and I am not going to ask you yes 
or no on that.
    I think that you are looking for scientific integrity, and 
I am going to just submit a couple of additional studies and 
questions as well to make sure that we really are basing this 
on sound science and not on what has been more agenda driven 
that scientific reality driven.
    Thank you very much.
    Thank you, Madam Chairman.
    Ms. Jackson. Thank you, Senator.
    Senator Boxer. Thank you very much, Senator Barrasso.
    Next is Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    I just want to say to my colleagues, whether you buy the 
science or not, I think we are all agreed--what can we agree 
on? I think we can agree on the idea that we have this huge 
dependence on fossil fuels, and it is not a good thing for our 
country. I think we can agree on the idea that we use all of 
this petroleum from other countries, they use our money to hurt 
us in many cases, and that is not a good thing for our country. 
I think the idea that we are not energy independent, not even 
close to it, in fact we are going the wrong way, is not a good 
thing for our country.
    And let us see if we can figure out, set aside all this 
other discussion, and just figure out what we can agree on to 
reduce our dependence on foreign oil, reduce our dependence on 
fossil fuels, create a lot of new jobs, technologies and 
innovation. Let us see if we could figure out how to do that. 
That would be a wonderful thing. And I think the people in this 
country would find it heartening.
    Administrator, thanks again for being with us today. In 
this year's budget I was happy to see additional money to help 
States and local air control programs meet new, stronger air 
pollution standards.
    As you may recall Senators Alexander, Klobuchar and I, 
along with about nine other colleagues, have recently 
introduced multi-pollutant legislation that provides aggressive 
targets for sulfur dioxide, nitrogen oxide and mercury emission 
for our Nation's fossil fuel powered plants. Our bill will 
save, we are told, over 215,000 jobs, save over $2 trillion in 
health care costs, and help States to meet new air quality 
standards, largely from air that blows to them from other 
States where they are putting all kinds of pollution up into 
the air.
    So, I want to know if you have taken a look at our 
legislation and have any preliminary thoughts you could share 
with us today.
    Ms. Jackson. Thanks, Senator. The agency has not finished 
its full review of the legislation. But I can say that I share 
your desire to significantly reduce emissions of 
SO<INF>2</INF>, NO<INF>x</INF>, mercury and other pollutants 
from power plants. I also respect, frankly, your ability to 
work with various stakeholders to bring them and keep them at 
the table and realize that this is a threat to our health and 
our children's health that is not going to go away. So, thank 
you.
    Senator Carper. Give us a time line, if you will please, 
just a rough time line, I understand that you have begun a 
review and will that end this year? Will they end next year?
    Ms. Jackson. This year? I think I feel comfortable with 
this year, but how about if I get back to you with a complete 
time line?
    Senator Carper. Would you? I will look forward to that. 
Thank you.
    In your experience, does legislation provide more legal 
certainty than rulemaking with regards to emissions from these 
utility plants?
    Ms. Jackson. Well, I believe we can, and I think history 
shows that we have achieved real meaningful reductions through 
our regulatory efforts. I have to admit that legislation 
certainly adds some certainty to the process. That is true of 
climate; it is true of any pollutant.
    Senator Carper. Good. I would agree.
    Next question. In the budget, there is $13.5 million to 
help implement the new mobile source emission standards for 
greenhouse gases. That should be finalized, I think, by March. 
These new standards are supported by our Nation's car companies 
and are stronger than the CAFE standards that Congress put into 
place in 2007. Is that correct?
    Ms. Jackson. That is right, yes.
    Senator Carper. Without the greenhouse gas endangerment 
finding can the EPA implement this new mobile source rule? Let 
me say that again. Without the greenhouse gas endangerment 
finding can the EPA implement this new mobile source rule?
    Ms. Jackson. The answer is no, Senator. The endangerment 
finding is predicated, the actual rules are predicated on a 
finding of endangerment. That is the way the Clean Air Act is 
written.
    Senator Carper. If the mobile source rule cannot be 
implemented does that mean that the California waiver will go 
forward? And I believe that since the waiver only applies to 
manufacturers that sell a certain threshold of cars in 
California, most American manufacturers would be required to 
meet emission standards in certain States. But the waiver would 
exempt some manufacturers outside this country. Is that 
correct?
    Ms. Jackson. That sounds correct to me as well, Senator.
    Senator Carper. Do you have concerns about that?
    Ms. Jackson. I have great concerns about losing the deal 
that everyone embraced around cars including a road map for 
automobile manufacturing for this country that takes us through 
the year 2016. And I do have great concerns about 
competitiveness and about regulatory certainty at a time when 
that industry continues to need as much certainty as it can as 
it attempts to rebound and grow.
    Senator Carper. OK. The last thing, I understand that in 
the President's budget there is $60 million for the Diesel 
Emission Reduction Act. We thank you for that, I believe. The 
funding for this program has been very successful. We are told 
that for every dollar that we spend we get $13 in benefits. And 
I have heard that there is a $1 billion backlog on applications 
for the Diesel Emissions Reduction Act.
    I just want to know, why does the Administration not 
provide additional funding for this successful program? And 
having said that, I would say the stimulus package provided a 
lot. Go ahead.
    Ms. Jackson. It did, sir, and I do not disagree with any of 
the numbers you cite. It is a wonderful program. It has 
bipartisan support. The amount in the budget is simply again a 
reflection of the tough choices that have to be made in terms 
of where we spend our hard-earned environmental dollars.
    Senator Carper. Good. Thanks so much.
    Senator Boxer. OK. Just because we have got people coming 
in and out, I want to see if this is OK. Sanders, Whitehouse, 
Klobuchar. Is that all right?
    Senator Whitehouse. I would yield to Senator Klobuchar 
since I just got here 2 seconds ago.
    Senator Boxer. All right. We will reverse it. That is fine.
    Senator Sanders, you can have 5 minutes. Please go ahead.
    Senator Sanders. Thank you.
    Let me begin by reading an editorial in not one of my 
favorite papers, a paper with a very conservative editorial 
page, and that is the Washington Post. This is what is says. 
This is yesterday, February 22nd. The Earth is warming. The 
chief cause is the increase in greenhouse gases accumulating in 
the atmosphere. Humans are at least in part responsible because 
the oil, gas and coal that we burn release these gases. If 
current trends persist, it is likely that in the coming decades 
the globe's climate will change with potentially devastating 
effects for billions of people.
    Contrary to what you may have heard lately there are few 
reputable scientists who would disagree with anything in the 
first paragraph. Yet suddenly we are hearing that climate 
change is in doubt and that action to combat it is unlikely. 
What is going on?
    And there is another paragraph that is interesting, let me 
get to the last part, that is what I want to read. Politicians, 
nonetheless, have seized on both the trivial mistakes, trivial 
mistakes, and the complexity of the science, to cast doubt on 
the underlying and unrefuted truth of human caused greenhouse 
gas accumulation. In many cases it is hard to know whether they 
are being obtuse or dishonest and hard to know which would be 
worse. End of quote.
    The reason that this debate is so important is that it 
reminds me in some ways of the debate taking place in this 
country and around the world in the late 1930s. And during that 
period with Nazism and Fascism growing, a real danger to the 
United States and democratic countries all over the world, 
there were people in this Congress, in the British Parliament, 
saying do not worry, Hitler is not real. It will disappear. We 
do not have to be prepared to take it on.
    Fortunately there were other people in this country, 
Roosevelt Republicans, who said, you know, we are going to have 
to be prepared for a war. Winston Churchill in England led the 
effort there. But because we were as slow as we were millions 
of people probably died unnecessarily.
    Global warming is real. If we do not get our act together 
there will be devastating impacts for our kids and our 
grandchildren, causing among other things trillions of dollars 
in order to repair that damage if it is repairable at all. And 
the longer we delay, the longer we have this senseless debate, 
the less prepared we will be.
    From an economic perspective China is not delaying. They 
are going forward in wind, they are going forward in solar. 
Spain is--countries all over the world are investing heavily in 
energy efficiency and in sustainable energies and creating, in 
the process, millions of jobs. And I suggest that if we do not 
act and act boldly it will be harmful for our people and our 
kids and harmful for our economy as well.
    Having said that, let me just ask the Administrator about 
an issue which is of real concern in the State of Vermont. We 
are downstream, so to speak, from the coal burning plants in 
the Midwest which emit a lot of very harmful pollutants. And 
our kids in Vermont and in other States in New England are 
coming down with asthma and other health problems. What are you 
going to do about that?
    Ms. Jackson. Well, Senator, I am going to continue to keep 
up the work we are doing to put in place a replacement rule for 
the Bush administration version of the CAIR Program, the Clean 
Air Interstate Rule, overturned by the courts during the Bush 
administration.
    So, in essence while we have been operating with a holdover 
CAIR Rule much of the pollution--ozone pollution in places like 
Vermont--is from out of State. It is interstate transport. And 
EPA--the court found that EPA had not put forth a rule that 
would really protect people on the downwind end of that kind of 
pollution.
    Senator Sanders. All right. All I can tell you is when I go 
into schools and I speak to school nurses they take out 
inhalators because a lot of our kids--and I suspect it is not 
different in New Jersey and in many parts of this country, and 
I would urge you to do everything that you can to help us clean 
up our air and prevent our kids from getting asthma and other 
very serious diseases.
    Thank you, Madam Chair.
    Ms. Jackson. Thank you, Senator.
    Senator Boxer. Thank you very much, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair.
    Good to see you again, Administrator Jackson. I first want 
to thank you for the work that you are doing on the Renewable 
Fuel Standard. You know that this has taken a lot of 
modifications based on science, and we have worked very hard on 
it. I truly believe, as I know Secretary Chu does, that while 
we are in the infancy for biofuels that there is a lot more to 
be done here in terms of where we can go with this. And we do 
not want to pull the rug out from under this developing 
industry.
    I wanted to actually--after touring my State last week and 
talking to a lot of local municipalities I talked a little bit 
about water infrastructure, something that Senator Whitehouse 
and I have both focused on in the past. And we are facing an 
investment gap. The President's budget requests $3.3 billion 
for Clean Drinking and Water State Revolving Funds. Could you 
talk about how this investment will narrow our current water 
infrastructure investment gap?
    We have been having some issues in our State where the EPA 
has told very small towns that they had to get a new water 
treatment plant, and then the Congress did not authorize the 
money. Or we authorized the money, but then the money was never 
paid out. And it is becoming very difficult for them, very 
small communities, 5,000 people, to pay for these water 
treatment plants to comply with the mandates from the EPA.
    So, I can show you some of these specific examples, but 
could you talk about what you see as the future of the water 
infrastructure investment?
    Ms. Jackson. Certainly. The estimated need for water 
infrastructure investment really has not decreased. We are 
chipping away at a pretty big mountain. Our needs survey for 
both clean water and drinking water infrastructure indicated 
needs at over $500 billion; others have estimated $500 billion 
to $600 billion depending on who is conducting the analysis.
    So, although we are seeing substantial amounts of money 
this past fiscal year, because of the way the budget works we 
spent well over $10 billion on water infrastructure between 
AARA and our appropriations. And yet when you are looking at 
hundreds and hundreds of billions of dollars' worth of need you 
are still chipping away.
    I do want to point out is that one of the things AARA did, 
and what we saw in money last year, was increased loan 
forgiveness for small communities on the clean water side, the 
sewage side, following the model of the Drinking Water Program.
    So, although there is not enough money to help all the 
small communities in your State--or any State, Senator, the 
idea being that for those where there really is an inability to 
pay, there are opportunities for States to decide how to give 
out this money, to really provide assistance to small 
communities, and that money can be in the form of grants, 
essentially, rather than loans.
    Senator Klobuchar. OK. Well, we will continue to work, and 
we have some specific projects that I am concerned about.
    I am also glad to see your announcement of the Great Lakes 
Restoration Action Plan this last weekend. I am a co-sponsor of 
the Great Lakes Legacy Act, and it would focus on clean up and 
removal of contaminated sediments in the Great Lakes.
    Could you talk about how EPA is going to address these 
concerns and maybe also mention what is happening with Asian 
carp?
    Ms. Jackson. I would be happy to. On the toxics area first, 
one of the things the President asked us to focus on in forming 
the Great Lakes Initiative in last year's budget was on toxics 
in the legacy contamination that serves as a continuing source 
of pollution. Even if you stop everything new there is still 
pollution in the Lakes.
    So, with this money we focused on actions, not more 
studies, and we estimate that we will be able to clean up four 
or five toxic hot spots completely just with the initial round 
of money and projects that we are looking at. Those are the 
kind of action oriented outcomes that the President is 
demanding from our investment in the Great Lakes, and I think 
we will be able to deliver, and we intend to ensure that we do.
    Carp and invasive species more generally are covered as 
part of the Great Lakes Restoration Initiative, and certainly 
we would like to see a decline in the increase of invasive 
species and eventually reverse that trend. And as you know EPA 
has taken about $58 million of money from the Great Lakes 
Restoration money, $475 million, to put specifically toward 
items to address the Asian carp issue which is more immediate.
    Senator Klobuchar. OK. Yesterday, a report was released 
highlighting the rapidly growing problem of discarded 
electronics common known as e-waste. Senator Gillibrand and I 
have a bill that lays out some groundwork for research in this 
area. It is, you know, billions and billions of new products 
have been bought that have advanced our lives, but so many of 
them are difficult to recycle or they are not being recycled.
    So, part of this is--like our home town company Best Buy is 
doing encouraging creating incentives to have customers bring 
in their old recycled products. But the other piece of this is 
getting that research going so that we can develop products 
that will have less environmental hazards when they are put 
into landfills or when they are discarded.
    Could you talk about any e-waste solutions coming out of 
EPA or any research going on there?
    Ms. Jackson. I am happy to. Obviously there is a domestic 
issue, and there is also the international issue. There are 
also States that are increasingly taking matters into their own 
hands. And so I think industry is seeing this sort of patchwork 
of different ideas for how to deal with a problem that no one 
denies, which is the problem with disposal. There are an 
increasing number of devices. They pose a serious risk.
    The fiscal year 2011 budget includes $1 million for a new 
research effort to do some fundamental redesign of electronic 
devices to try to get at the pollution prevention side of this 
problem, and we will continue to do that research. And I will 
continue to work with my solid waste and hazardous waste 
regulatory arm to see where we can help to guide the industry 
to follow smart companies, companies that have already stepped 
up to really steward their electronic waste.
    Senator Klobuchar. Thank you very much.
    Ms. Jackson. Thank you.
    Senator Boxer. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Thank you very 
much for holding this hearing.
    Administrator Jackson, thank you for your important work. I 
hope that you do not take away from this particular room any 
new doubts about the quality of the science that supports, I 
think, highly legitimate concerns about climate change. When 
organizations such as NOAA and NASA and our entire intelligence 
community and our U.S. Department of Defense all are aligned I 
think it is pretty safe to say that that is pretty mainstream 
science.
    I will not do it again, because I have done it repeatedly, 
but there is also a letter from all of America's major 
scientific organizations, the vast majority of them anyway, 
laying out very clearly that the science on this is essentially 
undisputed, and it is their uniform view of this.
    Set against that science, unfortunately, is an industry. 
There was a book called Merchants of Doubt written about the 
public relations and propaganda effort to raise doubt in order 
to create political maneuvering room for these industries. And 
I think very much that that is what we are seeing in the 
specter of doubt that some are attempting to raise about the 
validity of science that, unless you want to throw out 
scientific method entirely, it is just about as solid as it 
gets.
    With respect to my learned colleague's comparison to the 
1930s, I think Neville Chamberlain's Willful Blindness has 
justly earned the opprobrium of history. But nobody accused him 
of having an ulterior motive. And I think the judgment of 
history about efforts to derail what needs to be done in the 
face of this threat may be harsher because of the special 
interest overlay of the industries that have made themselves 
merchants of doubt when the science is actually very secure.
    One of the problems that we face in Rhode Island on a 
bright clear summer day is that the radio, in the morning as 
people drive into work, will announce that this is a bad air 
day for Rhode Island and that the elderly, people with 
breathing difficulties, young children, infants, should be kept 
indoors.
    If you look at the source of it, it is not from within 
Rhode Island. There is not much we can do about it in the 
State. It is coming from other States. It is coming from the 
Midwest. One of the sort of starkest admissions of this problem 
is the height of some of the smokestacks that have been built 
in other States in order to take the effluent from those 
smokestacks and get it high enough into the air column that it 
will not land in their State any longer, that it will be 
transported. And it comes down in Rhode Island in the form of 
these bad air quality days where warnings are required.
    I would urge you to be as energetic as you possibly can in 
enforcement in those areas because by exporting the pollution 
to other States these companies have taken themselves out of 
the loop of local consequence. Some of them actually have 
better air quality nearby the smokestacks that we do in Rhode 
Island because they are sending it up to land on us.
    So, we really depend on our Federal agencies where there 
are these interstate pollution export, if you will, problems, 
to defend us. I would like to ask you to say a few works about 
that problem and your role and what we can expect.
    Ms. Jackson. Thank you, Senator. I will just repeat my 
commitment to seeing a proposed Clean Air Interstate Rule 
promulgated and then eventually finalized this year, hopefully 
in the coming months, earlier in the year, not later in the 
year, because we are without a way to protect against 
interstate transport. The previous rules were, frankly, found 
to be illegal.
    Also, I think you know we have out a proposal now to lower 
the National Ambient Air Quality Standard for ozone. That was 
not a happy day to admit to the American people that the 
science as we know it says that even lower levels of ozone are 
unsafe. And we have to start by being honest with the American 
people and telling it like it is even when we know that means 
it is going to be even harder to get to.
    But in my opinion the Clean Air Act remains one of the 
greatest success stories out there, internationally, when it 
comes to fighting pollution. And although we have challenges we 
also know the lesson of the Clean Air Act is if we squarely 
face those challenges, technology intervenes, and we find cost 
effective, job creating ways to address them. So, we will 
continue to do our job with respect to air pollution, sir.
    Senator Boxer. Thank you very much.
    I am going to build the case that this endangerment finding 
that you have made was built on the findings and the work of 
the Bush administration. And I am going to read you some 
evidence of that and ask if in fact you did build on a lot of 
their work.
    And I am going to put into the record, without objection, a 
letter sent to us by Jason Burnett, who was the Associate 
Deputy Administrator of the EPA under George W. Bush, and he 
made his--his department made the endangerment finding that is 
being so attacked. And he sent it to the White House.
    He received a call, and this is directly from his letter, 
asking us ``not to send the finding.'' When we explained the 
document had been sent, he says, I was asked to send a follow 
up note saying the e-mail had been sent in error. I explained I 
could not do this because it would not be true. I want to put 
this letter into the record. So, that is clear that they made 
the endangerment finding.
    And then I am going to ask to put into the record a couple 
of pages of Julie Gerberding, she was the head of the CDC, the 
Center for Disease Control, under George W. Bush. And her 
testimony to this committee was redacted in part, and I am 
going to read from the redacted part because we got this from a 
whistle blower, and I am assuming you got this document.
    She said scientific evidence supports the view that the 
Earth's climate is changing. A broad array of organizations, 
she talks about Federal, State, local, multilateral, faith-
based, private and nongovernmental, is working to address it. 
Despite this extensive activity the public health effects 
remain unaddressed. CDC considers climate change a serious 
public concern.
    And she goes on, Julie Gerberding, George W. Bush, CDC. 
Direct effects of heat, health effects related to extreme 
weather, air pollution, which Senator Whitehouse has talked 
about, allergic diseases, water- and food-borne infectious 
diseases, vector-borne diseases, food and water scarcity, 
mental health problems and long-term impacts of climate 
disease.
    So, I am going to put those two pages into the record. And 
I am going to ask you if in fact your endangerment built on the 
work of the former Administration and perhaps other 
Administrations before that.
    Ms. Jackson. Yes, Chairman, it did. The endangerment 
finding was done in large part when I walked in the door at 
EPA. A draft, the one you referenced, we did update it. We did 
review the science. We did broaden the finding to include human 
health and welfare. But we relied essentially on the same 
science moving forward.
    And I do believe it is incumbent to constantly be looking 
at the science at is evolves. Science changes, but as someone 
said earlier, I think you have to look at the mountain of 
evidence that says that the climate is changing and that there 
are manmade causes and realize the every time one of these 
issues comes up we owe it to the American people to say we will 
look at it and then----
    Senator Boxer. Sure, yes.
    Ms. Jackson. And then reach a conclusion.
    Senator Boxer. Yes. And that is essential. So, as we said, 
there has not been one agency in America, NOAA, NASA, DOD, CIA 
that to my knowledge has backed off their views.
    I would like to put into the record an article that 
appeared in a British newspaper called the Independent, Think-
tanks take oil money and use it to fund climate deniers. It 
says Exxon Mobil cash supported a concerted campaign to 
undermine case for manmade warming. An orchestrated campaign is 
being waged against climate change science to undermine public 
acceptance of manmade global warming, environmental experts 
claimed last night. And this goes on. It is a very succinct 
article.
    And last I want to put in the record three studies that 
were made on job creation if we move forward with climate 
change legislation. The Clean Energy Economy in America by Pew 
predicts millions of jobs in the Nation. The Pew Charitable 
Trusts did a study in California where the clean energy jobs 
are the only sector that have been growing and providing jobs 
in my State through this recession, and a University of 
California study also the same conclusion.
    I want to ask you about the brownfields funding because I 
am very pleased with it. You are requesting an additional $41 
million. And a lot of us worked to pass that law. I think 
Senator Inhofe may have worked with us as well. Can you 
describe the kind of job creation benefits and leveraging of 
resources EPA expects from the brownfields program under your 
budget?
    Ms. Jackson. Yes. History has shown that brownfields money 
is heavily leveraged with private sector money. Oftentimes 
brownfields money is the way to start the engine economically 
around a particular site or in a particular community. The 
increased funding is a reflection of our recognition of that 
simple fact and the fact that not all communities are dealing 
with one big Superfund site. Oftentimes it is smaller sites 
that are holding back economic growth.
    So, the money will be used to assess sites, to actually do 
the testing and assessment to determine the nature of the 
problem, to do clean up on sites, including underground storage 
tank sites, to do job training. The EPA Brownfields Job 
Training Program is one of those little gems that uses 
communities that have been impacted by pollution, trains them 
to get good paying jobs in cleaning up pollution, an industry 
that sadly will probably never be without a need for well 
trained workers.
    And I am very proud of the fact that we were able to 
squeeze a little bit more money into this budget for 
brownfields.
    Senator Boxer. OK, my time is up, so I am going to put a 
question in the record because I am very pleased with the 
increase in funding for the Office of Children's Health, and I 
wanted you to write to me and describe some of the new 
initiatives you plan to take.
    Ms. Jackson. I would be happy to.
    [The information follows:]
              Office of Children's Health--New Initiatives
    The Office of Children's Health Protection (OCHP) will oversee 
implementation of the Energy Independence and Security Act of 2007 
(EISA), providing technical assistance to States and communities on 
implementation of voluntary school siting and environmental health 
guidelines to incorporate greater consideration of environmental health 
issues in schools.
    Using authority provided by the Energy Independence and Security 
Act of 2007, EPA will establish a State grants program to support 
States and communities in the implementation of strategies to create 
healthy school facilities.
    EPA will also provide increased and focused outreach and technical 
assistance to school districts to assist with implementation of the 
guidelines and increase adoption of EPA's programmatic school 
environmental health tools (e.g. IAQ Tools for Schools, School Chemical 
Cleanout Campaign, Integrated Pest Management). Activities will 
include:
     Increased coordination with States, tribes, local communities, 
schools and the general public by supporting a strong communications 
and outreach effort to share information and provide technical 
assistance, tools and materials.
     Expanded outreach through conferences, meetings, training events, 
Webinars, and other outreach mechanisms.
     Targeted efforts in underserved communities, such as urban, 
tribal and other underserved areas.
    OCHP will co-lead an inter-agency effort with the Department of 
Education and the Department of Health and Human Services to improve 
Federal Government-wide support of clean, green and healthy schools, 
implementing legislative mandates and coordinating outreach and 
technical assistance.

    Senator Boxer. If you would do that, please.
    Senator Inhofe.
    [The referenced documents follow:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
        
    Senator Inhofe. Thank you, Madam Chairman.
    Let me respond to a couple of things that have been said by 
some of my good Democrat friends.
    First of all Senator Merkley talked about reducing our 
dependence on foreign oil to run this machine called America. 
We can do it. We can do it overnight. Right now we are the 
largest--we have the largest recoverable reserves of coal, 
natural gas and oil of any country out there including China, 
including Russia. The problem is political. We are the only 
country in the world whose Congress will not allow us to 
explore our own resources. That could be done. That is an easy 
thing.
    And I would say to my good friend Senator Whitehouse, you 
were not in here when we were talking about the science 
initially. And I would only say we can argue about this as long 
as you want to argue about it, and people who have said the 
science is settled, the science is settled, the science is 
settled, and they say it over and over again hoping that if 
they say it enough times they will believe it.
    Yet the guy who is in charge of all of the science with 
IPCC is Dr. Phil Jones. Dr. Phil Jones says, I do not believe 
the vast majority of climate scientists think the debate is 
over. That is a very simple thing. That is the guy who is 
charge of the IPCC.
    Now, since it was said trivial mistakes, I think it was 
Senators made that comment, we may think it is trivial here but 
if you look overseas at what is happening, the Financial Times 
has called for an independent investigation of the IPCC report, 
the Atlantic Magazine, The Stink of Intellectual Corruption is 
Overpowering, the Daily Telegraph, this scandal is the greatest 
scientific scandal of our generations.
    Our magazines over here, the Chicago Tribune editorial, 
Global Doubting, the U.N.'s credibility on climate change is in 
tatters and what is going to affect the debate. The Atlantic 
says that the stink of intellectual corruption is overpowering. 
The Guardian, and they were on the other side of this issue, 
said I was too trusting of some of those who provided the 
evidence I championed. I would have been a better journalist if 
I had investigated their claims more closely.
    The same thing is true of the Washington Post, Newsweek, 
there is not time to go over that, but I will have those 
submitted into the record.
    Now, one of the things that has been said over and over 
again is the question that it is not really just the IPCC. 
Well, I read Administrator Jackson's report saying for the 
proposal the agency relied in large part on the assessment 
reports developed by the Intergovernmental Panel on Climate 
Change. I believe that. I know that is true.
    However, if you look at the various statements that are 
made, no, this is NOAA saying this, the Defense Department is 
saying this, the Lawrence Livermore National Lab and all that, 
this is the thing that is kind of interesting. In the TSD 
report, that is the technical support document of the 
endangerment finding, this refers to 67 different 
documentations from science, of which 47 are the IPCC. Now, 
some of the others that are reported, the other 20, those 
people also are IPCC, but they are not identified as that.
    For example, Dr. Benjamin Santer, who is the current 
Research Scientist, Program for Climate Model Diagnosis, this 
is Lawrence Livermore, but he is also an author of the IPCC. 
Gavin Schmidt, that is NASA, when it is talking about no, NASA 
came through with this, well, NASA did, but this guy is also a 
reviewer for the IPCC assessments. Dr. Susan Solomon, that is 
NOAA, she also is one of the authors of this report.
    So, when it gets down to it the bottom line is that the 
science came from the IPCC. That was the collection point. All 
of the scientists were there.
    And my concern still goes back to this. I fought for years 
on the floor of the U.S. Senate to keep us from going down the 
road of financial destruction in having a cap-and-trade type of 
approach. And I am talking about the McCain-Lieberman bill in 
2003, the McCain-Lieberman bill of 2005, the Warner-Lieberman 
bills, the Boxer-Sanders bill, all of these. The one thing they 
had in common is it was cap-and-trade, which is essentially 
what we would be doing, even though it is being denied, it 
would be doing it through regulations.
    Now, what is the cost of that? I am not, you know, I do not 
claim to be the economist. But I know that MIT, the Wharton 
School, CRA and all of the rest of them said somewhere in the 
range of $300 billion to $400 billion a year. That would be the 
largest tax increase on the American people. And by the 
admission of the Administrator Jackson this would not reduce 
CO<INF>2</INF> if we pass any of these bills. And the same is 
true, I would have to say, with doing the same thing through 
regulations.
    So, here we have an endangerment report that is based on 
the science from the IPCC which has been totally discredited. 
And I think somebody has to say this because, when the hard 
times come, when the increases, when the overregulation, hits 
the American people for no useful purposes, because it is not 
going to reduce CO<INF>2</INF>, then someone is going to have 
to stand up and say, we knew all the time that the science was 
cooked.
    That is my question.
    [Laughter.]
    Ms. Jackson. I have a two-word answer. I disagree. But just 
let me respond to three things, Senator. And I am happy to do 
additional things for the record if that is necessary.
    I do not agree that the IPCC has been totally discredited 
in any way. In fact, I think it is important to understand that 
the IPCC is a body that follows impartial and open and 
objective assessments. Yes, they have had concerns about e-
mail. I do not defend the conduct of those who sent those e-
mails. There is peer review, which is part of the IPCC process, 
there are numerous, numerous groups of teams and independent 
researchers all a part of coming up with IPCC findings such 
that even the IPCC has said, while we need to investigate and 
ensure that our scientists are held to a standard of scientific 
conduct that we can be proud of, we stand behind our findings. 
And so I cannot agree with you there. And I am sure that you 
are not surprised.
    I do not agree with you on the job killing. I actually 
believe, as the President does, that we have to have a 
foundation for growth in this country and that Americans want 
clean energy and see the value of investing in a future for 
generations to come. And if we want to make that investment we 
have to change from being totally dependent on fossil-based 
power without controls for carbon, without a price for carbon, 
and we have to do that.
    And I have to tell you that it strikes me, when I hear 
about these doom and gloom forecasts for economic ruin, that, 
you know, the Clean Air Act amendments predicted a quiet death 
for business across the country. That is what we were told. A 
cap-and-trade program, or a program to reduce pollution through 
market incentives, and what really happened is that the U.S. 
economy grew by 64 percent, even as acid rain pollution was cut 
by 50 percent.
    There are ways to make smart environmental investments and 
policy. I commit to you, sir, that I would do nothing less as I 
sit in this chair. It is too important to our country, 
economically but also environmentally. But to sit here and say 
that these policies and a move toward clean energy will not be 
good for jobs in this country, I simply cannot----
    Senator Inhofe. You know, I would appreciate that if I were 
the one who was saying this. This was MIT, this was the Wharton 
School. They talk about the economic destruction of our 
country. And then, of course, the comment you made, I do 
appreciate, except that is the reason that I quoted all the--
the Atlantic, the Guardian, all of these newspapers, all of 
these publications who are now saying that the science was not 
right.
    So it is not me saying it. I am quoting others. Because I 
do not have the credibility. I understand that. But certainly, 
when the whole Nation turns around and people say this should 
be a wakeup call, we are basing this major step, this 
endangerment, on science that we know now is flawed. And that 
is the reason that I quote other sources, so that I do not have 
to quote myself.
    Ms. Jackson. Well, I think we have to quote sources like 
the National Academies of Science. I think we have to talk 
about the----
    Senator Inhofe. Well, how about the IPCC? Is that not a 
pretty good source?
    Ms. Jackson. Well, we just talked about the IPCC and said 
that I absolutely agree, that you can look into e-mails and any 
allegations that come up, but that, you know, science can be a 
bit messy. The dust will settle. But I have not at this point 
seen anything that changes my belief that the endangerment 
finding is not only on sound ground but will stand up to 
scrutiny and challenge.
    Senator Inhofe. And the IPCC said the science is not 
settled.
    Thank you, Madam Chairman.
    Senator Boxer. Senator. I am going to take the 4 minutes 
extra that I gave you at the end.
    Senator Whitehouse.
    Senator Whitehouse. Oh, I am sorry. Well, I think that 
Senator Inhofe is absolutely right about one thing and that is 
that history will be our judge. I just disagree with him on the 
judgment of history over this time. I think if we do not take 
action the judgment of history will be extremely harsh.
    I think that the combination of willful blindness and 
corporate special interests creates a unique risk. And I think 
it is very important that we stand true to the basic principles 
of scientific method and recognize that doubt is a product that 
is sowed on purpose in this debate.
    I cannot think of an area in my personal life where I would 
refuse to act until 100 percent certainty was achieved. If I 
heard an alarm in the night, sure there is a chance that the 
alarm has malfunctioned. But I still wake up the kids. If there 
is a gas leak in the house, well sure there is a chance that it 
will never go off or it will solve itself. But you take 
reasonable, thoughtful measures.
    And with the scale of the problem that we are potentially 
facing I would encourage you, Madam Administrator, to hold firm 
to the science and to what you are doing. I think most people 
who have looked at this get very clearly where we need to be, 
and as challenging as these moments in this rather special 
chamber might be for you, hold on for the judgment of history.
    Thank you for your efforts.
    Senator Boxer. Well, we are, thankfully for you, 
Administrator Jackson, bringing our hearing to a close.
    This has been an important debate because, frankly, I think 
we have reached a new point in this debate. And the debate is 
shifting. My Republican friends have shifted from attacking the 
international scientific panels to attacking the most respected 
organizations right here in America. From NOAA, the Oceanic 
Administration, to NASA, the Space Administration, to the CIA, 
to the DOD, to the CDC, DOT, meaning the Department of 
Transportation, the CDC, the Center for Disease Control, we are 
talking about attacks on the Department of Agriculture that is 
very involved in helping us with this, the Interior Department. 
We are now seeing colleagues attack American's most respected 
institutions.
    This reminds me of some other times that we had where 
people turned on our most admired institutions. I mean, they 
are attacking groups like the American Association for the 
Advancement of Science, the American Geophysical Union, the 
American Meteorological Society, the American Society of Plant 
Biologists, the Association of Ecosystem Research Centers, the 
American Chemical Society, the American Institute of Biological 
Scientists, the American Society of Agronomy, the American 
Statistical Association, the Botanical Society of America, the 
Crop Science Society of America, the Ecological Society of 
America, the Organization of Biological Field Stations, the 
Natural Science Collections Alliance, the Society for 
Industrial Applied Mathematics, the Society of Systemic 
Biologists, the University Corporation for Atmospheric Research 
and the Soil Science of America, who wrote to us and said to 
us, observations throughout the world make it clear that 
climate change is occurring and rigorous scientific research 
demonstrates that the greenhouse gases emitted by human 
activities are the primary driver.
    Now, look. There has been a shift today. This is big news. 
We are now seeing the other side attack our own people, in 
America, who are not political, who care about this country, 
who love this country, who have dedicated themselves to making 
sure that we get the facts. Now our job, as Senator Inhofe 
says, is to get the facts and make the policy. We are not 
scientists.
    Now, I have other information that the organization cited 
by Senator Barrasso is funded through Exxon Mobil. So, we will 
put that in the record.
    So, I guess you have to ask the question, whose side are we 
on? And I come down on the side of America's leading 
scientists, of the credible people here in this country who 
want us to succeed, who want us to do the right thing. And of 
course the good news that we have is if we do the right thing, 
we are going to create millions and millions of job.
    I so appreciate, Administrator Jackson, your being here 
today and in your very calm way telling us the truth about what 
you know, what you have learned, how you have built on the Bush 
administration scientists and leaders. And this debate, to me, 
as I said, has been a turning point. And the vast majority of 
this committee, we are just going to continue to do our work 
based on the facts.
    The last point I would make is that we all know that we are 
entitled to our opinions but not to the facts. And I just ask 
Jason--is he here? To hold up, there is one chart I just want 
to look at, the one that talks about what has already happened, 
not speculation, to the climate in the last decade. We do not 
have that one up here? Well, then we will just go with these.
    [Charts shown.]
    Senator Boxer. The extreme weather. This is not conjecture. 
Amount of rain in the heaviest storms has increased nearly 20 
percent in the past century. By contrast, in much of the 
Southeast and large parts of the West, the frequency of 
droughts has increased over the past 50 years. In the West, 
both the frequency of large wildfires and length of the fire 
season have increased substantially in recent decades. And in 
the last 30 years annual sea surface temperatures have 
increased 2 degrees, coinciding with an increase in the 
destructive energy of Atlantic tropical storms and hurricanes.
    And we have the facts on the melting ice sheets. We know 
about the temperatures. We know all these things. They have 
already happened. The last decade was the hottest ever 
recorded. So, these are the facts. No one can dispute this. 
Senator Inhofe cannot dispute these facts. This has already 
happened.
    So where we are now is, as legislators we need to make 
policy based on the science. And we intend to do this. We have 
great respect, the majority of this committee, for NASA and 
NOAA and the CIA, and the DOD, and all the departments at the 
EPA. Nobody is perfect here. We know that nobody is perfect. 
But we see the trends.
    And again the good news is when we act and we do the right 
thing we are going to lead this world in these technologies, 
and we are going to create these jobs.
    So, the challenge stands before us. I appreciate, 
Administrator Jackson, your testimony. Thank you very much.
    We stand adjourned.
    [Whereupon, at 12:10 p.m., the full committee was 
adjourned.]
    [An additional statement submitted for the record follows:]

                Statement of Hon. Frank R. Lautenberg, 
               U.S. Senator from the State of New Jersey

    Madam Chairman, thank you for holding this hearing on the 
Environmental Protection Agency's budget request.
    One of the most important things this request does is to 
give the EPA the resources it needs to fight global warming 
pollution. Some of our colleagues on this committee would have 
us believe that the science about global warming is in dispute, 
and we lack the proof to act. They are trying to use a few 
stolen e-mails and minor errors out of thousands of scientific 
papers to suggest that global warming is no longer a serious 
threat to our well-being. But that is contrary to overwhelming 
scientific consensus and common sense.
    The world's leading scientific organizations continue to 
agree that global warming is a scientific reality. In fact, 
even the Bush administration agreed that climate change is a 
threat to our environment, health and national security.
    When there's a fire, firefighters do not sit on their hands 
and wait for it to get worse. They run to put it out.
    We have a fire burning--and that fire is climate change. We 
can sit here and argue about whether it's a three-alarm or 
four-alarm fire, or we can act to put it out and protect our 
planet. That spirit of action is at the heart of President 
Obama's budget request for the Environmental Protection Agency.
    While I would like to see more funding for the EPA, this 
budget makes the investments necessary to address the critical 
problems facing the health of our environment and our children.
    This budget, for example, requests $56 million--including 
$43 million in new funding--for the EPA and States to address 
climate change by controlling greenhouse gas emissions.
    Beyond climate change, this budget makes serious 
investments in areas we can all agree on: cleaning up pollution 
in the air to protect our children, reducing our dependence on 
oil to improve our national security, and creating clean energy 
jobs so that America can lead the 21st century economy.
    The budget request also includes a 9.5 percent increase for 
the development of 21st century testing of chemicals. The EPA 
understands, as I do, that far too many unsafe chemicals are 
winding up in the products we use every day.
    That's why I will soon introduce a bill that will overhaul 
our Nation's chemical laws. My safer chemicals bill will have a 
simple goal: force chemical makers to prove that their products 
are safe before they end up in a store, in our homes, or in our 
bodies. I look forward to working with the EPA on this common 
sense legislation.
    Finally, Madam Chairman, I look forward to working with the 
Administration and EPA on one of my concerns with this budget: 
inadequate funding for the Superfund Program.
    This program is one of the Federal Government's most 
important tools for keeping our communities clean and safe. New 
Jersey has more Superfund sites than any other State in the 
Nation, but the Superfund program was gutted during the Bush 
years. It's critical we fully fund this program. We cannot 
leave toxins sitting in communities where our children live.
    We also need to hold polluters accountable for the 
destruction they cause. I am pleased that this budget request 
calls for the reinstatement of the Superfund polluter pays tax, 
and I will work with the Administration to make that a reality.
    I look forward to continuing to work with our friend from 
New Jersey, EPA Administrator Lisa Jackson, to protect our 
planet and our children's health.

    [Additional material submitted for the record follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
                                 [all]
                                 
                                 
                                 
</pre></body></html>
